<html>
<title> - DOE/ESE SECURITY: HOW READY IS THE PROTECTIVE FORCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
          DOE/ESE SECURITY: HOW READY IS THE PROTECTIVE FORCE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2005

                               __________

                           Serial No. 109-104

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-259                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2005....................................     1
Statement of:
    Aloise, Gene, Director, Natural Resources and Environment, 
      Government Accountability Office, accompanied by James 
      Noel, Assistant Director of Natural Resources and 
      Environment, and Jonathan M. Gill, Senior Analyst, Natural 
      Resources and Environment; Gregory H. Friedman, Inspector 
      General, Department of Energy; Glenn S. Podonsky, Director, 
      Office of Security and Safety Performance Assurance, 
      Department of Energy; Dr. Lawrence Brede, Wackenhut, DOE 
      Operations; Dr. Glenn Adler, Security Policy, Service 
      Employees International Union; and Robert Walsh, Security 
      Manager, Office of Energy, Science and Environment, 
      Department of Energy.......................................     7
        Adler, Dr. Glenn.........................................    73
        Aloise, Gene.............................................     7
        Brede, Dr. Lawrence......................................    62
        Friedman, Gregory H......................................    27
        Podonsky, Glenn S........................................    40
        Walsh, Robert............................................    86
Letters, statements, etc., submitted for the record by:
    Adler, Dr. Glenn, Security Policy, Service Employees 
      International Union, prepared statement of.................    76
    Aloise, Gene, Director, Natural Resources and Environment, 
      Government Accountability Office, prepared statement of....    10
    Brede, Dr. Lawrence, Wackenhut, DOE Operations, prepared 
      statement of...............................................    64
    Friedman, Gregory H., Inspector General, Department of 
      Energy, prepared statement of..............................    29
    Grassley, Hon. Charles E., a Senator in Congress from the 
      State of Iowa, prepared statement of.......................     5
    Podonsky, Glenn S., Director, Office of Security and Safety 
      Performance Assurance, Department of Energy................    43
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Walsh, Robert, Security Manager, Office of Energy, Science 
      and Environment, Department of Energy:
        Followup question and response...........................   110
        Prepared statement of....................................    89


          DOE/ESE SECURITY: HOW READY IS THE PROTECTIVE FORCE

                              ----------                              


                         TUESDAY, JULY 26, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.
    Present: Turner, Shays, Burton, Marchant, Dent, Maloney, 
Kucinich, and Ruppersberger.
    Staff present: Laurence Halloren, staff director and 
counsel; J. Vincent Chase, chief investigator; Robert Briggs, 
clerk; Sam Raymond and Eric Vaughn, interns; Andrew Su, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Turner. The hearing of the National Security, Emerging 
Threats, and International Relations hearing entitled, ``DOE/
ESE Security: How Ready is the Protective Force?,'' is called 
to order.
    This hearing continues the subcommittee's examination of 
security programs at Department of Energy nuclear sites. 
Previous testimony described substantial institutional, 
technical and fiscal challenges confronting efforts to develop 
and implement a strengthened post-September 11th security 
standard called the design basis threat [DBT].
    Today we focus on the substance and pace of DBT 
implementation at five sites outside the active weapons complex 
managed by the Department's Office of Energy, Science and 
Environment. Without question, ESE research labs and 
decommissioned sites are attractive targets for terrorists 
determined to turn our technology against us and willing to die 
while doing so.
    The materials at these facilities pose a threat and can be 
used either as part of a weapon or a health threat directly. As 
DOE succeeds in hardening weapons production facilities and 
labs, ESE sites form the next tier of soft targets for nuclear 
terrorists following the path of least resistance.
    But as we have heard before, ESE facilities housing 
substantial quantities of nuclear materials face unique 
problems implementing and sustaining enhanced security 
programs. The already vexing measure of how much security is 
enough against an uncertain threat becomes only more difficult 
when evaluating the costs and benefits of capital improvements 
and protective force enhancements at decommissioned facilities 
DOE hopes to close sooner rather than later.
    At the request of our chairman, Christopher Shays, the 
Government Accountability Office assessed the current readiness 
of protective forces at ESE sites and the steps still needed to 
defend those facilities against the larger, more capable 
attackers postulated in the DBT. Their findings, released 
today, point to a generally proficient guard staff prepared to 
meet existing standards. But the way forward to meet the higher 
DBT threat level is far less clear.
    Efforts to deploy an elite protective force, utilize new 
security technologies and effectively manage ESE security 
initiatives require coordination and resource commitments that 
GAO is not sure will materialize. Plans to blend down and 
consolidate nuclear materials appear stymied by bureaucratic 
stovepipes and uncertain cost projections. Even under the best 
assumptions, security enhancements demanded by the 2004 DBT 
will not be completed before 2008, if then. The new security 
imperative demands implementation of a denial strategy to 
thwart access to nuclear materials, not just contain or catch 
intruders.
    But in many ways, ESE seems stuck in denial about 
organizational and fiscal demands of a DBT-compliant strategy. 
Tactical training on assault scenarios lack vigor or realism. 
Communications equipment may be unreliable. Exceptions to 
training and equipment standards create inconsistencies and 
gaps in ESE safeguard systems. A diffused ESE security 
management structure frustrates efforts to implement and 
coordinate DOE-wide security policy securities.
    Almost 4 years later, the undeniable realities of the post-
September 11th world are not yet fully reflected in ESE 
security policies or practices. Our witnesses this morning will 
describe plans to implement the more stringent DBT and the 
steps needed to sustain those efforts against an undeniable 
dynamic threat. We appreciate their contribution to our ongoing 
oversight of DOE nuclear security, and we look forward to their 
testimony.
    Gentlemen, as you are aware, it is the policy of this 
subcommittee to swear in our witnesses. If you would please 
stand and raise your right hands for the oath.
    [Witnesses sworn.]
    Mr. Turner. Please note for the record that the witnesses 
have responded in the affirmative.
    And I will acknowledge that Mr. Ruppersberger was in 
attendance at the commencement of this hearing. And I ask 
unanimous consent that all members of the subcommittee be 
permitted to place any opening statement in the record and that 
the record remain open for 3 days for that purpose. Without 
objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, it is so ordered.
    I ask further unanimous consent to place a statement from 
Senator Grassley, a co-requester on the GAO study to be 
discussed today, in the hearing record. Without objection, it 
is so ordered.
    [The prepared statements of Hon. Christopher Shays and Hon. 
Charles E. Grassley follow:]

[GRAPHIC] [TIFF OMITTED] T5259.003

[GRAPHIC] [TIFF OMITTED] T5259.004

[GRAPHIC] [TIFF OMITTED] T5259.001

[GRAPHIC] [TIFF OMITTED] T5259.002

    Mr. Turner. Our witnesses today for this panel include Mr. 
Gene Aloise, Director, Natural Resources and Environment, 
Government Accountability Office, accompanied by Mr. James 
Noel, Assistant Director of Natural Resources and Environment; 
and Mr. Jonathan M. Gill, Senior Analyst, Natural Resources and 
Environment.
    We also have Mr. Gregory H. Friedman, Inspector General, 
Department of Energy; Mr. Glenn S. Podonsky, Director, Office 
of Security and Safety Performance Assurance, Department of 
Energy; Dr. Lawrence Brede, Wackenhut, DOE Operations; Dr. 
Glenn Adler, security policy, Service Employees International 
Union [SEIU]; and Mr. Robert Walsh, Security Manager, Office of 
Energy, Science and Environment, Department of Energy.
    And if I have mispronounced any of your names, please 
correct the record when you give your testimony.
    We will begin our testimony with Mr. Aloise.

  STATEMENTS OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
 ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY 
    JAMES NOEL, ASSISTANT DIRECTOR OF NATURAL RESOURCES AND 
  ENVIRONMENT, AND JONATHAN M. GILL, SENIOR ANALYST, NATURAL 
   RESOURCES AND ENVIRONMENT; GREGORY H. FRIEDMAN, INSPECTOR 
  GENERAL, DEPARTMENT OF ENERGY; GLENN S. PODONSKY, DIRECTOR, 
OFFICE OF SECURITY AND SAFETY PERFORMANCE ASSURANCE, DEPARTMENT 
 OF ENERGY; DR. LAWRENCE BREDE, WACKENHUT, DOE OPERATIONS; DR. 
 GLENN ADLER, SECURITY POLICY, SERVICE EMPLOYEES INTERNATIONAL 
 UNION; AND ROBERT WALSH, SECURITY MANAGER, OFFICE OF ENERGY, 
         SCIENCE AND ENVIRONMENT, DEPARTMENT OF ENERGY

                    STATEMENT OF GENE ALOISE

    Mr. Aloise. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to discuss our work on nuclear 
security at DOE's Energy, Science, and Environment sites. A 
terrorist attack on one of these sites, containing weapons-
grade nuclear material could have devastating consequences for 
the site and nearby communities.
    Mr. Turner. Excuse me. These mics are relatively 
directional. Could you pull the mic forward? And if you would 
twist it just a bit so that it is pointed directly at you, that 
would help us.
    Mr. Aloise. These consequences could include theft of 
nuclear material, explosion of an improved nuclear device, and 
use of the material in a dirty bomb. To protect these sites, an 
effective security program is essential.
    DOE's security program begins with a document known as the 
``design basis threat,'' which identifies the size and 
capabilities of potential adversaries. The 2004 design basis 
threat identified a much larger terrorist threat than before, 
and it could cost between about $400 million and $600 million 
to develop the force necessary to defeat this larger threat.
    DOE is allowing its sites until October 2008 to fully meet 
the new design basis threat. My remarks, which are based on the 
report we are issuing for the subcommittee today, will focus on 
whether ESE protective forces are meeting current readiness 
requirements and what actions are needed to defend against a 
larger October 2004 design basis threat.
    Regarding readiness, we found that protective forces at the 
five ESE sites, with weapons-grade nuclear material, generally 
meet readiness requirements. Specifically, protective forces at 
the Savannah River site, Hanford site, Idaho, and Argonne West, 
and Oak Ridge National Lab generally comply with DOE standards 
for firearms proficiency, physical fitness and equipment, and 
had the required training programs and facilities.
    However, we did find weaknesses that could impact the 
protective forces' ability to defend their sites. For example, 
most officers we spoke with were concerned about the quality 
and realism of their training. Further, because DOE neither 
sets standards for, nor tracks individual participation in 
force-on-force exercises, it was difficult to determine how 
many officers had this important training.
    Another weakness identified by protective force officers at 
all five sites concerned problems with their radios. Some said 
that the radios could not be relied on in the event of a 
terrorist attack.
    In addition, although most protective forces are required 
to have access to body armor, at one site we found that body 
armor had not been issued for most officers. Another site did 
not have its own special response team. In the event of an 
attack, one of the jobs of a special response team would be to 
recover stolen nuclear material.
    In addition, the capability of some of the protective 
forces to fight during a chemical or biological attack varied. 
Specifically, two sites expected and provided equipment for 
most of their forces to fight in contaminated areas. Another 
site did not provide any equipment. Indeed, it expected its 
teams to evacuate the site with other workers. Yet another site 
expected its forces to fight in a chemically contaminated area, 
but did not provide protective gear.
    Another weakness we observed was that only one of the five 
sites had armored vehicles. In contrast, all six NNSA sites 
with weapons-grade nuclear material have armored vehicles.
    Now regarding actions needed to meet the 2004 design basis 
threat. In our view, DOE needs to develop and implement a 
comprehensive Department-wide plan which addresses, among other 
things, the transition to an elite fighting force, investments 
in emerging security technologies, and the consolidation of 
weapons-grade nuclear material. Further, DOE needs to establish 
a centralized security office within ESE to help meet the 
challenges of implementing the new design basis threat.
    While I am pleased to note that DOE has accepted our report 
recommendations, DOE's response to our recommendation to 
develop a comprehensive plan to meet the new design basis 
threat does not go far enough. DOE has cited only individual 
efforts to address the new threat, and not the larger plan we 
are calling for. Without such a plan, DOE may not be successful 
in meeting the requirements of the 2004 design basis threat by 
October 2008.
    Mr. Chairman, this concludes my remarks. I would be happy 
to respond to any questions you or members of the subcommittee 
may have.
    [Note.--The July 2005 GAO report entitled, ``Nuclear 
Security, DOE's Office of the Under Secretary for Energy, 
Science and Environment Needs to Take Prompt, Coordinated 
Action to Meet the New Design Basis Threat, GAO-05-611,'' may 
be found in subcommittee files.]
    [The prepared statement of Mr. Aloise follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.005
    
    [GRAPHIC] [TIFF OMITTED] T5259.006
    
    [GRAPHIC] [TIFF OMITTED] T5259.007
    
    [GRAPHIC] [TIFF OMITTED] T5259.008
    
    [GRAPHIC] [TIFF OMITTED] T5259.009
    
    [GRAPHIC] [TIFF OMITTED] T5259.010
    
    [GRAPHIC] [TIFF OMITTED] T5259.011
    
    [GRAPHIC] [TIFF OMITTED] T5259.012
    
    [GRAPHIC] [TIFF OMITTED] T5259.013
    
    [GRAPHIC] [TIFF OMITTED] T5259.014
    
    [GRAPHIC] [TIFF OMITTED] T5259.015
    
    [GRAPHIC] [TIFF OMITTED] T5259.016
    
    [GRAPHIC] [TIFF OMITTED] T5259.017
    
    [GRAPHIC] [TIFF OMITTED] T5259.018
    
    [GRAPHIC] [TIFF OMITTED] T5259.019
    
    [GRAPHIC] [TIFF OMITTED] T5259.020
    
    [GRAPHIC] [TIFF OMITTED] T5259.021
    
    Mr. Turner. Thank you.
    Mr. Friedman.

                STATEMENT OF GREGORY H. FRIEDMAN

    Mr. Friedman. Mr. Chairman and members of the subcommittee, 
I am pleased to be here, at your request, to testify on recent 
reviews conducted by the Office of Inspector General regarding 
security programs of the Department of Energy. This is the 
latest in a series of testimonies that we have provided to the 
Congress on this important subject. The issues addressed have 
included training, physical security, and performance testing. 
A number parallel those addressed in GAO's just issued report.
    Between 2003 and 2005, we identified issues regarding 
protective force overtime and training. In one review, which 
included five Department sites, we found the Department faced 
significant increases in unscheduled protective force overtime. 
Further, we noted protective force morale and retention 
problems due to mandatory overtime and reduced training 
opportunities.
    In a review with the Department's Oak Ridge Reservation, we 
found that contractor protective force personnel spent, on 
average, about 40 percent less time on combat readiness 
refresher training than that specified in the training plan 
approved by Federal site managers, and that the personnel 
worked in excess of the Department's optimum 60-hour per week 
threshold.
    In a third review we found that 10 of the 12 sites made 
significant modifications to the Department's established 
protective force core curriculum. This raised questions about 
the effectiveness of the training received by the affected 
protective force personnel, as well as the validity of the core 
curriculum.
    In June 2005, we examined physical security at two DOE 
facilities. In the first review we found that foreign 
construction workers using false identification documents 
gained access to the Oak Ridge Y-12 National Security Complex. 
During our field work, management issued a revised access 
policy. Nonetheless, we were concerned, and are concerned, that 
similar conditions may exist at other sensitive Department 
sites. Therefore, we recommended that management determine 
whether agency-wide actions are warranted.
    The second review concerns security at the Strategy 
Petroleum Reserve. The Reserve, which the Department has 
designated as part of its critical infrastructure, contains 
about 695 million barrels of oil valued at about $36 billion. 
We concluded that physical security at the Reserve could be 
improved.
    Specifically, we found that 87 percent of the non-
protective force contractor employees of the Reserve, some with 
the ability to access sensitive areas unescorted, had never 
been processed for any level of security clearance. Therefore, 
in our judgment, the Reserve's level of protection against the 
``insider threat'' may not be consistent with its critical 
infrastructure designation. We also found the Reserve's deadly 
force policy may also not be consistent with the Reserve's 
critical infrastructure designation; and, finally, we 
identified opportunities to make site protective force 
performance tests more realistic.
    Protective force performance testing was also the subject 
of a January 2004 report, where we found that a performance 
test at Y-12 was compromised as a result of certain protective 
force personnel being allowed to view computer simulations of 
the test scenarios prior to the test, and there was an apparent 
pattern of actions by Oak Ridge Reservation security personnel 
going back to the mid-1980's that may have negatively affected 
the reliability of site performance tests.
    In another 2004 report concerning Oak Ridge, we identified 
that the two local Department management offices, the Oak Ridge 
office and the Y-12 site office, were developing separate radio 
communications projects. The two projects as designed would 
have created gaps in radio coverage and would have prevented Y-
12 protective forces from maintaining communications with the 
rest of the Oak Ridge Reservation and their own dispatcher.
    These findings were similar to an earlier review at four 
other Department sites, in which we found that three of the 
four sites did not have direct radio communication with local 
law enforcement agencies. These agencies would have been called 
upon to assist in the pursuit of suspected felons or terrorists 
fleeing Department sites.
    We also have a number of ongoing and planned security 
reviews relevant to the topics discussed during this hearing. 
This includes an intensive effort to review the Department's 
security program and its progress in meeting the threat posed 
in the revised design basis threat document.
    The Department is working to address many security concerns 
and is doing so at a substantial cost. The Office of Inspector 
General will continue to examine the Department's security 
apparatus with the goal of providing recommendations to enhance 
efficiency and effectiveness.
    Mr. Chairman and members of the subcommittee, this 
concludes my statement. I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Friedman follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.022
    
    [GRAPHIC] [TIFF OMITTED] T5259.023
    
    [GRAPHIC] [TIFF OMITTED] T5259.024
    
    [GRAPHIC] [TIFF OMITTED] T5259.025
    
    [GRAPHIC] [TIFF OMITTED] T5259.026
    
    [GRAPHIC] [TIFF OMITTED] T5259.027
    
    [GRAPHIC] [TIFF OMITTED] T5259.028
    
    [GRAPHIC] [TIFF OMITTED] T5259.029
    
    [GRAPHIC] [TIFF OMITTED] T5259.030
    
    [GRAPHIC] [TIFF OMITTED] T5259.031
    
    [GRAPHIC] [TIFF OMITTED] T5259.032
    
    Mr. Turner. Thank you.
    Mr. Podonsky.

                 STATEMENT OF GLENN S. PODONSKY

    Mr. Podonsky. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for inviting me to testify regarding 
the readiness of protective force to defend Office of Energy, 
Science and Environment facilities in light of the GAO's recent 
report on their examination of protective force training and 
equipment at five ESE sites.
    I will highlight relevant aspects of the GAO report from 
the perspective of the Office of Independent Oversight within 
my Office of Security and Safety Performance Assurance. These 
issues are addressed in greater detail in my written statement.
    The Department considers its responsibilities to protect 
national security assets in our custody to be crucial. 
Secretary Bodman and Deputy Secretary Sell have demonstrated an 
intense interest and strong support for our security programs, 
and have continued the significant initiatives begun by their 
predecessors. This support includes the policy of holding line 
managers responsible for security program implementation and 
effectiveness, to include achieving established milestones for 
meeting the requirements of the Department's design basis 
threat.
    While ESE site missions are generally associated with basic 
and applied scientific research and environmental remediation, 
rather than with national security matters, some ESE sites and, 
in particular, the five sites addressed in the GAO report--
currently possess significant quantities of special nuclear 
material.
    We agree with the GAO's general conclusion that protective 
forces at ESE facilities visited are adequately trained and 
equipped to protect the facilities under the current 
requirements. But there are some weaknesses that must be 
addressed.
    This conclusion is consistent with our own previous 
independent oversight inspections of these facilities. We 
believe that ESE line managers and security professionals at 
all ESE organizational levels will move quickly and effectively 
to address the protective force training and equipment 
shortcomings outlined by the GAO, and will likely respond 
positively to recommendations contained in the draft report.
    We anticipate efforts to do so will be integrated with many 
other actions necessary to meet the requirements of the design 
basis threat. We are confident that the new Under Secretary, 
Dave Garman, together with the newly appointed ESE Director of 
Security, Bob Walsh, will provide the immediate and sustained 
high level of attention necessary for these efforts to be 
successful.
    We are currently pursuing a number of Department-wide 
initiatives designed to assist ESE in meeting its security 
challenges and obligations. Two, in particular are aimed at 
achieving affordable security upgrades to meet the design basis 
threat requirements. One of these is the Elite Force 
Initiative, by which we intend to enhance the tactical 
capabilities of those protective elements responsible for 
protecting our most critical national security assets.
    We believe that to effectively defeat current and future 
threats, we need protective force elements possessing the 
advanced training, weapons, equipment, and tactics that will 
enable them to conduct a coordinated and intense offensive and 
defensive tactical operation at skill levels comparable to 
those of elite military units.
    While achieving this goal will require some modified 
training and some upgraded equipment, together with policy 
changes, it should not require significant changes in manpower 
levels. Many of our current special response team personnel 
already possess high levels of tactical skills and are well 
armed and equipped. And this initiative is more about changing 
how we use some protective force resources than it is about 
adding more resources.
    Further, this initiative will not directly involve 
protective forces at all ESE sites, especially those that do 
not possess critical national security assets, and may involve 
only a portion of the forces at sites protecting such assets. 
We have a number of activities under way to determine required 
changes in policy, defensive strategy and tactics, training, 
weapons, equipment, and supporting technologies that will 
enable us to effectively implement the elite force concept as 
envisioned on schedule.
    Intertwined with the Elite Force Initiative is another 
complementary initiative, involving the increased use of 
security technologies to effectively and efficiently upgrade 
our protection systems. Through the prudent application of 
appropriate technologies, we expect increased use of those 
security technologies to provide cost savings and improved 
effectiveness over manpower intensive alternatives.
    It is important to clarify that when we refer to security 
technologies, we do not refer exclusively to expensive, high 
technology and delicate electronic sensors. While such devices 
are certainly included, security technologies also include many 
other categories of items, such as improved barrier systems, 
materials that provide ballistic protection, advanced 
protective force weapons and equipment, and improved 
construction techniques. We expect the security technologies 
initiative to benefit all of our facilities.
    The application of appropriate security technologies can 
improve effectiveness and efficiency of any protection system. 
Therefore, we believe all ESE sites are candidates for security 
technology upgrades, although we would expect more intensive 
investment in the benefits of such technologies at sites 
protecting our more critical assets.
    I wish to note that the Idaho site within ESE has actually 
been extremely proactive with our security technology 
deployment initiatives and has recently submitted an impressive 
design basis threat implementation plan.
    Through our technology deployment program, our site 
assistance visit effort, and our development activities, we are 
making progress in identifying and evaluating new technologies 
for site-specific applications.
    In summary, Mr. Chairman and members of the committee, we 
agree with the general results, conclusions, and 
recommendations of the GAO report, and believe that ESE line 
managers under the new ESE leadership will address the issues 
identified by the GAO and the IG as they address the challenges 
associated with implementing the design basis threat.
    We believe that our elite force, security technology, and 
other security initiatives will assist ESE meeting those 
challenges within the parameters established by Secretary 
Bodman and Deputy Secretary Sell. But they are challenges, and 
the ultimate success of the effort will in fact require the 
attention and support of ESE line managers at every level.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Podonsky follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.033
    
    [GRAPHIC] [TIFF OMITTED] T5259.034
    
    [GRAPHIC] [TIFF OMITTED] T5259.035
    
    [GRAPHIC] [TIFF OMITTED] T5259.036
    
    [GRAPHIC] [TIFF OMITTED] T5259.037
    
    [GRAPHIC] [TIFF OMITTED] T5259.038
    
    [GRAPHIC] [TIFF OMITTED] T5259.039
    
    [GRAPHIC] [TIFF OMITTED] T5259.040
    
    [GRAPHIC] [TIFF OMITTED] T5259.041
    
    [GRAPHIC] [TIFF OMITTED] T5259.042
    
    [GRAPHIC] [TIFF OMITTED] T5259.043
    
    [GRAPHIC] [TIFF OMITTED] T5259.044
    
    [GRAPHIC] [TIFF OMITTED] T5259.045
    
    [GRAPHIC] [TIFF OMITTED] T5259.046
    
    [GRAPHIC] [TIFF OMITTED] T5259.047
    
    [GRAPHIC] [TIFF OMITTED] T5259.048
    
    [GRAPHIC] [TIFF OMITTED] T5259.049
    
    [GRAPHIC] [TIFF OMITTED] T5259.050
    
    [GRAPHIC] [TIFF OMITTED] T5259.051
    
    Mr. Turner. Dr. Brede.
    Also, I want to acknowledge that Carolyn Maloney has joined 
us.
    Mrs. Maloney. Thank you.
    Mr. Turner. Dr. Brede.
    Dr. Brede, I don't think your mic is on.

                STATEMENT OF DR. LAWRENCE BREDE

    Dr. Brede. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today to 
offer my views on the readiness of Department of Energy Office 
of Energy, Science and Environment protective forces to meet 
the terrorist threats identified by the intelligence community.
    The perspective I bring to the table is that of a senior 
contract manager for a protective force and a soldier. Until 
recently, I served as General Manager of the Savannah River 
site protective force contract, one of the five sites recently 
reviewed by the GAO. I served in that capacity for more than 12 
years. And prior to my DOE service, I spent 26 years as an Army 
officer with three combat tours, including service with elite 
units.
    Let me say up front, for the record, that our protective 
forces are well trained and, as a group, are as capable as any 
of the military units with which I have served. In fact, the 
majority of protective force officers with whom I am familiar 
come from a military background and bring with them the skills 
necessary for the protection of critical DOE assets.
    Anecdotally, the winner of two annual recent National Level 
Tactical Competitions comes from a DOE ESE site. In these 
competitions, they scored consistently higher than military, 
law enforcement, and Federalized forces in tests of shooting, 
physical fitness, and tactical skills.
    With reference to the GAO report, I believe it provides a 
balanced assessment of ESE protective force readiness to defend 
their respective sites. The report's conclusions, that 
protective forces generally meet existing key DOE readiness 
requirements and comply with DOE standards, firearms 
proficiency, physical fitness levels, and equipment 
standardization are accurate ones.
    At the same time, the report's identification of possible 
weaknesses and actions needed to correct these could serve to 
enhance our abilities to defend against the 2004 design basis 
threat. Because it matters not how capable we are today, we 
ought to work at being better than we are. Our sites can and 
are addressing the weaknesses in training and equipment 
identified in the GAO draft report.
    I would submit if the GAO would conduct a review today on 
force readiness at ESE sites, the results would be 
significantly different than the snapshot taken when the last 
review began in March 2004. Today's picture would reflect more 
tactically focused training, the employment of more advanced 
weapons systems, communications, and armored vehicles, and a 
host of other actions related to meeting the 2004 DBT.
    Similarly, I believe that site contractors understand the 
necessity to take our protective force readiness and 
capabilities to the next level. That is, we need to transform 
certain segments of our legacy force to an elite force. Based 
on secretarial guidance and Office of Security and Safety 
Performance Assurance initial efforts, some sites--and the 
Savannah River site among them--have already taken actions to 
transition to this elite force with challenging training, 
increased performance standards, and tactical reorganization.
    I also believe that the transformation to an elite force 
can be facilitated by policy considerations in four areas: more 
challenging physical fitness qualification standards; 
introduction of height, weight, and body composition standards; 
identifying appropriate safety performance expectations; and 
considering a uniform retirement plan to allow for cycling of 
human capital through elite force units.
    In conclusion, I believe that ESE protective forces are 
sufficiently trained and equipped to meet existing DOE 
readiness requirements. Site implementation plans identifying 
how sites will meet the increased challenges presented by the 
October 2004 DBT have been provided to DOE ESE and are being 
reviewed for approval. Meanwhile, my experience indicates we 
are being provided the resources necessary to support the 
phased implementation of measures to meet 2004 DBT protective 
force requirements.
    While addressing certain policy issues will certainly 
enhance our force readiness, I have confidence in our 
protective forces' ability to counter today's and future 
threats. Simply stated, I am as proud to serve as these forces 
as I was to serve with America's sons and daughters in my 
military experience.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Brede follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.052
    
    [GRAPHIC] [TIFF OMITTED] T5259.053
    
    [GRAPHIC] [TIFF OMITTED] T5259.054
    
    [GRAPHIC] [TIFF OMITTED] T5259.055
    
    [GRAPHIC] [TIFF OMITTED] T5259.056
    
    [GRAPHIC] [TIFF OMITTED] T5259.057
    
    [GRAPHIC] [TIFF OMITTED] T5259.058
    
    [GRAPHIC] [TIFF OMITTED] T5259.059
    
    [GRAPHIC] [TIFF OMITTED] T5259.060
    
    Mr. Turner. Dr. Adler.

                  STATEMENT OF DR. GLENN ADLER

    Dr. Adler. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify today. I am Glenn 
Adler, and I work for the Service Employees International 
Union. I have submitted a statement for the record and will 
summarize the main points.
    We have three main concerns. The best standards in the 
world will not improve security if contractors elude them if 
DOE's oversight is weak, or if DOE lacks the will to weed out 
poor performers or to avoid choosing them in the first place in 
the procurement process.
    SEIU is one of the largest trade unions in the United 
States, with more than 1.8 million members. We are the largest 
union of security officers in the country. I am responsible for 
coordinating research and policy work in the Federal sector, 
including in DOE nuclear facilities and NRC regulated 
commercial nuclear power plants.
    On September 11th, our security officers and janitors at 
the World Trade Center, were among the first responders to that 
terrible tragedy, working side by side with the NYPD and the 
firefighters in a cause to which many of our members gave their 
lives. But well before the horrible events of September 11th, 
SEIU had been raising the issue of security standards, most 
notably for airport security screeners. We have partnered with 
responsible contractors, building owners, mayors, and 
Governors, to raise standards and improve performance.
    We know DOE's regulations for training and performance are, 
as they should be, far beyond the standards in the commercial 
office world. But the GAO report, on the table today, tells us 
that contractors are in significant ways not living up to them. 
Consider one failure identified in the report and then echoed 
in the fine presentation by the Inspector General, undependable 
radio communications. This may sound like a minor matter to 
some people, but it may contribute to serious problems. In 
fact, one may have already occurred.
    According to the New York Times, in 2004, poor radio 
communication played a role in the confusion of a near friendly 
fire incident at the Y-12 plant in Tennessee. Officers are 
courageous people, people doing difficult and important work. 
They are heavily armed, and they go out into the night and we 
learn that perhaps their radio communication doesn't allow them 
to talk to each other. To what extent is DOE's multibillion 
dollar security budget compromised by poor radios and dead 
batteries? A chain is only as strong as its weakest link.
    This problem is directly connected to issues that are not 
directly addressed in the GAO's report, the oversight and 
accountability of contractors' behavior. SEIU believes security 
should be of the highest standard, whether performed by public 
authorities or by private companies. We are not opposed to 
privatization. But contractors' interest in the bottom line may 
encourage cheating and cutting corners.
    In response, we expect government to check and balance 
their behavior, and to change the incentives that may lead to 
cutting of corners. But the Department sometimes contributes to 
these irresponsible outcomes. The GAO has consistently warned 
DOE about problems, for example, with their award fees. Yet, 
these problems persist today.
    You are all familiar with last year's IG report on cheating 
by the foreign-owned contractor Wackenhut during a security 
drill at Y-12. The incident cost the contractor about $200,000 
in fees. But the company still received a good performance 
grade from DOE and a $2.3 million award fee. Rather than a 
multimillion dollar award fee, such outrageous practices 
demanded serious sanctions from the DOE, including the 
consideration of canceling the contract, suspension, or 
debarment. Remember, this is cheating at a facility that 
contains special nuclear material.
    We have heard from multiple security employees at other DOE 
ESE sites that these practices are not confirmed to Y-12. And 
some security officers told us the motto is ``if you ain't 
cheating, you ain't competing.''
    Oversight exercised by the Inspector General is critical to 
corralling this sort of behavior, but their oversight has been 
subject to continuous public criticism by contractors. After 
the recent IG report on training problems at Oak Ridge, which 
is referenced in the GAO report and which was mentioned by the 
representative from the IG, a Wackenhut spokesman mocked the IG 
as ``bean counters who didn't understand security practices.'' 
Such comments indicate contempt for the agencies, including 
Congress, to whom the IG reports, who are charged with 
oversight of these facilities. They create an impression, in 
the minds of the public, at least--at odds with expectations of 
oversight and accountability.
    To us, the conditions described by the GAO report are 
shocking but not entirely surprising, since we encounter very 
similar problems in other contexts: NNSA sites, commercial 
nuclear power plants, and U.S. military bases. However, today's 
report and other GAO and IG investigations tend to mirror the 
structure of DOE itself, taking a piece of the puzzle and 
looking at it in depth.
    We believe it is important to complement these perspectives 
by assessing the contractors, and not just the agencies, and 
looking at their entire record across different settings to 
learn whether a problem reported at one facility is an isolated 
event or part of a broader problem and pattern of poor 
performance. This will help in oversight of current contractors 
and, if applied during the procurement process, will help weed 
out poor performances before they are even awarded a contract.
    In conclusion, the best standards in the world will not 
improve security if contractors elude them, if DOE's oversight 
is weak and if DOE lacks the will to get rid of poor performers 
or to avoid choosing them in the first place.
    We make a few recommendations: One, that DOE urgency 
implements an effective process to monitor performance and weed 
out poor performers, rather than reward them; a review of award 
fees and the robust use of penalties to enforce compliance; DOE 
must have a dramatically lower tolerance for cheating and 
cutting corners, making it too expensive for a contractor to 
risk this kind of behavior; and, faintly, DOE acquisition 
processes should be strengthened to ensure contracting officers 
do the proper due diligence by assessing security contractors' 
past performance and their record of business integrity and 
ethics. This is already in the Federal acquisition regulars, 
but is not always applied in practice.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Adler follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.061
    
    [GRAPHIC] [TIFF OMITTED] T5259.062
    
    [GRAPHIC] [TIFF OMITTED] T5259.063
    
    [GRAPHIC] [TIFF OMITTED] T5259.064
    
    [GRAPHIC] [TIFF OMITTED] T5259.065
    
    [GRAPHIC] [TIFF OMITTED] T5259.066
    
    [GRAPHIC] [TIFF OMITTED] T5259.067
    
    [GRAPHIC] [TIFF OMITTED] T5259.068
    
    [GRAPHIC] [TIFF OMITTED] T5259.069
    
    [GRAPHIC] [TIFF OMITTED] T5259.070
    
    Mr. Turner. Mr. Walsh.

                  STATEMENT OF ROBERT J. WALSH

    Mr. Walsh. Good morning, Mr. Chairman and members of the 
subcommittee. On behalf of Under Secretary David Garman, I 
would like to thank you for the opportunity to appear before 
you this morning to discuss the readiness of DOE protective 
forces at facilities which are under the operational oversight 
of the Energy, Science, and Environment programs.
    My name is Robert Walsh. I am currently the Director of 
Security for Energy, Science, and Environment programs for the 
Department of Energy. This position was created last year by 
former Deputy Secretary Kyle McSlarrow, pending the nomination 
and confirmation of an Under Secretary. The purpose of creating 
this position was to bring focus and management oversight to 
security programs on the ESE side of the Department, similar to 
what the Office of Nuclear Security provides for the National 
Nuclear Security Administration [NNSA], and to ensure that ESE 
interests are appropriately represented in the security 
management decisions of the Department.
    Subsequent to his confirmation on June 15th, and his 
swearing in approximately 1 month ago, on June 23rd, Under 
Secretary Garman directed that this position be formalized as a 
permanent part of the staff of the Office of the Under 
Secretary. The objective and intent of this position is to 
provide executive management focus for DOE security initiatives 
as they apply to ESE programs, and to ensure participation and 
coordination, together with Mr. Podonsky's organization and 
NNSA, in security decisions and management oversight of DOE 
security programs.
    Although ESE security directors have had two informal 
meetings since last October, we have taken advantage of the 
scheduling of this hearing to convene our first official 
meeting of the ESE Security Management Team since Under 
Secretary Garman's confirmation last month. In that regard, I 
am pleased to have with me today security representatives from 
each of the ESE programs--Environmental Management, Science and 
Nuclear Energy, Science and Technology--and ESE sites, 
including Idaho, Savannah River, Oak Ridge National Laboratory, 
and Richland, which specifically were the subjects of the most 
recent Government Accountability Office report regarding ESE 
protective force readiness.
    Mr. Chairman, we are here before you today to discuss the 
readiness of protective forces at DOE's ESE sites. The 
Government Accountability Office has indicated that they 
believe that ESE security forces generally do meet readiness 
requirements as defined by DOE policy directives, and we agree 
with this assessment.
    We are extremely proud of the men and women who comprise 
the protective forces which are responsible for protecting DOE 
facilities on a daily basis. These officers are our first line 
of defense against any active aggression from any number of 
malevolent sources, and we believe they do an excellent job.
    One indication of the overall readiness of protective 
forces at ESE sites is the fact that special police officer 
teams from two ESE sites placed first and second at this year's 
annual Security Protection Officer Training Competition 
[SPOTC], which was held last month in Albuquerque, NM and was 
previously referenced in Dr. Brede's testimony.
    Our team from Savannah River finished first among 11 teams, 
representing ESE and NNSA sites from across the country, with 
the Hanford Patrol team taking second place in the overall 
competition. In addition, this year's Police Officer of the 
Year, Ryan Strader, hails from Savannah River, as does Ryan's 
colleague, Allen Ford, the second place finisher in the overall 
individual competition. We are very proud of Ryan and Allen, 
and the teams from Savannah River and Hanford for their 
outstanding showing in this year's competition, and I am 
pleased to recognize them here this morning.
    The GAO also identified a number of areas which they felt 
needed to be addressed, and DOE has either corrected or is 
working to correct the weaknesses that GAO has identified. I 
would like to take a moment to briefly summarize our efforts 
with regard to GAO's specific findings in this report.
    First, GAO identified that current DOE policy does not 
require all protective force officers to participate in every 
force-on-force exercise, and that sites were not required to 
formally track individual officer participation in those 
exercises. GAO recommended that DOE develop policy requirements 
to ensure officer participation and to require sites to track 
individual officer involvement.
    DOE agrees with these recommendations, and Mr. Podonsky's 
office has committed to developing and issuing DOE-wide policy 
to address both issues by the end of this calendar year. We 
plan to work closely with Mr. Podonsky and his staff to ensure 
that this is completed.
    It should be noted that some ESE sites are already 
requiring this participation in force-on-force exercises and 
are keeping track of that participation.
    Second, GAO found weaknesses or deficiencies at some ESE 
sites with regard to equipment issuance or operability, 
including radio communications, body armor, chemical protective 
gear, and availability of armored vehicles. We have conducted a 
comprehensive review of each identified category at each ESE 
site. We have corrected, or are in the process of correcting 
each weakness, and we believe that each ESE site is currently 
in compliance with DOE policy requirements in each case.
    Mr. Chairman, we can provide more specific information 
regarding protective force equipment at your convenience.
    GAO has also recommended that ESE develop Department-wide 
multi-year fully resourced implementation plans to meet the 
requirements of the new design basis threat. Three of the four 
ESE sites have participated in the jointly conducted site 
assistance visits to determine current and future resource 
requirements of the current DBT. The fourth site, Hanford, is 
scheduled to be completed in September.
    In addition, together with staff from Mr. Podonsky's 
office, we are currently reviewing the DBT implementation plans 
from each ESE site. These plans include projected resource 
requirements and specific timelines, and we believe we are 
currently meeting all requirements as they have been defined. 
We expect to complete our review and submit the plans to the 
Deputy Secretary for his approval by the end of this week.
    Last, GAO recommended that the Under Secretary for ESE 
establish a security organization to provide management 
oversight and coordination for security initiatives within ESE 
programs. As stated earlier, Under Secretary Garman has 
formalized the position of Director of Security for ESE as a 
formal part of his management team. We believe that this 
initiative is responsive to GAO's recommendation in this area.
    Once again, Mr. Chairman, I would like to thank you and the 
committee for the opportunity to appear before you this 
morning, and I would be happy to answer any questions. Thank 
you.
    [The prepared statement of Mr. Walsh follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.071
    
    [GRAPHIC] [TIFF OMITTED] T5259.072
    
    [GRAPHIC] [TIFF OMITTED] T5259.073
    
    [GRAPHIC] [TIFF OMITTED] T5259.074
    
    [GRAPHIC] [TIFF OMITTED] T5259.075
    
    [GRAPHIC] [TIFF OMITTED] T5259.076
    
    [GRAPHIC] [TIFF OMITTED] T5259.077
    
    [GRAPHIC] [TIFF OMITTED] T5259.078
    
    [GRAPHIC] [TIFF OMITTED] T5259.079
    
    Mr. Turner. Thank you.
    We will begin questions for the panel with our chairman, 
Chairman Christopher Shays. We will begin with a 10 minute 
round of questions.
    Mr. Shays. I thank the chairman for giving me this 
opportunity to ask questions and to say I was in Iraq 24 hours 
ago, so I am trying to listen, but it is a little difficult.
    We have had three hearings with the Under Secretary for the 
National Nuclear Security Administration, and this is our 
second hearing on the Under Secretary for Energy, Science, and 
Environment. There are only two Members here. I don't know that 
is an indication that people think we are doing well or whether 
there are just so many things to focus on.
    However, I happen to think this is a hugely important 
hearing, and I thank you all for being here. I am not sure if 
the chairman and I will direct questions to everyone, so I have 
no problem with others jumping in if they want to respond to 
questions.
    Mr. Podonsky, you seem to come to either hearings we have, 
given that you are involved in both areas, is that correct?
    Mr. Podonsky. Yes, sir.
    Mr. Shays. How would you evaluate ESE's efforts to 
implement the design basis threat denial of access security 
strategy?
    Mr. Podonsky. Until Under Secretary Garman was confirmed 
and until Director Walsh was put into his position, I would 
characterize ESE as being somewhat slower in what we had 
anticipated or hoped for implementation of the DBT. Part of 
that we believe is because the ESE organization was made of 
very strong, sincere individuals for their security programs 
within ESE, science, nuclear energy, environmental management, 
fossil energy.
    The reality is they were all doing what they thought was 
prudent for their particular sites. We did not see the rapidity 
that we felt that was needed to implement the design basis 
threat, but they all had their individual perspectives on what 
their priorities were. I don't want to speak for what their 
priorities----
    Mr. Shays. Let me get to the next question.
    Mr. Podonsky. Yes, sir.
    Mr. Shays. How do you evaluate the ESE? Are you optimistic 
that they are going to meet their 2008 deadline on the design 
basis threat?
    Mr. Podonsky. Yes, sir, we are guardedly optimistic that 
they will because they have the new leadership that they have 
not had in the history of the ESE before. And that guarded 
optimism comes from the implementation plans that we have 
recently read from Idaho and one of the other sites within ESE. 
We hadn't seen that enthusiasm before.
    Mr. Shays. What kind of program office resistance have you 
encountered regarding the implementation of the design basis 
threat?
    Mr. Podonsky. If I said resistance, I misspoke. I think 
what we have seen is extremely careful analysis of what the 
design basis threat was and how it applied to their sites. The 
other thing that I think, in all respect to the Department, the 
design basis threat from May 2003 changed in October 2004. So 
we would expect that ESE sites, like the NNSA sites, should be 
moving toward completion of the 2003 DBT numbers in 2006 for 
completion.
    Mr. Shays. I have a sense that the Department is reluctant 
to implement the design basis threat. You don't think there is 
a reluctance?
    Mr. Podonsky. We have seen a hesitancy in terms of the 
Department----
    Mr. Shays. That is called a reluctance.
    Mr. Podonsky. Yes, sir.
    Mr. Shays. OK. So you have seen that.
    Mr. Podonsky. Yes, sir.
    Mr. Shays. OK. Why did DOE change the design basis 
implementation deadline from October 2007 to October 2008?
    Mr. Podonsky. I am not familiar with the October 2007 
deadline being changed to 2008. There was a review that former 
Deputy Secretary McSlarrow asked for to be conducted at the end 
of a series of this committee's hearing and the GAO report on 
the NNSA facilities.
    Mr. Shays. I will throw this out to you and then anyone 
else who wants to answer. The design basis threat, if it isn't 
met until 2008, we are basically stating that we are 
vulnerable. That is what it says to me. In other words, we 
can't meet what we believe is the threat. So I guess what I 
have a hard time understanding is why does it have to take 3 
years? It doesn't seem like it is rocket science to me. It 
seems to me it is just a matter of doing it.
    And I am going to throw this out to anyone else who wants 
to answer.
    Mr. Podonsky. Mr. Shays, if I could start off, if my 
colleagues here at the table will permit me. From an NNSA 
perspective, my organization, that has both policy and 
oversight of the Department, safeguarding security and 
cybersecurity, to name a few subjects, we don't disagree with 
the perception and the reality that if you have a threat today, 
how can you not meet it until 2008 and beyond.
    What we believe has been a great distraction for this body, 
as well as the executive branch, is the focus on the policy of 
the design basis threat, when in reality it should be about 
implementation: the application of new technologies, the elite 
force that we have mentioned in our testimonies here today, how 
we apply our security strategies at our sites, and, equally as 
important, nuclear material consolidation.
    It gets confused between both the legislative arm and the 
executive branch on focusing on the policy and the threat, when 
in fact we need to have our sites implement a more robust 
security posture than we currently have if we are going to meet 
today's challenges that we see throughout the world.
    Mr. Shays. I don't really feel that you have given me an 
answer to the question, though. Why does it have to take so 
long?
    Mr. Podonsky. I don't have an answer why it should take so 
long.
    Mr. Shays. OK.
    Mr. Walsh.
    Mr. Walsh. Mr. Chairman, the only thing I would add is, and 
I spent some time in intelligence and working on postulated 
threat and design basis threat. The design basis threat is, and 
we have to be careful that we don't wind up getting into 
anything classified, and make sure we don't. But the design 
basis threat is a generic threat on which you design your 
protective forces and your protection strategy over a very long 
period of time, usually 15 or 20 years. For many years the 
design basis threat was fairly stable. I think post-September 
11th, realistically, we have to take a very close look at that.
    Mr. Shays. Well, you had to take a close look. For 
instance, if you believed that people who came in to get one of 
the resources that we were protecting, if you believed that 
they didn't want to lose their lives, were willing to risk 
losing lives, but didn't want to lose their lives, you believed 
that they also had to get out with the material. So you had a 
design basis threat that said, well, maybe they can get in, but 
they are not going to get out.
    Mr. Walsh. Right.
    Mr. Shays. But if you, all of a sudden, realize that they 
don't care if they get out, if they are willing to blow 
themselves up onsite, the design basis threat changes, correct?
    Mr. Walsh. Parts of it change. The strategy may change.
    Mr. Shays. Well, wouldn't it mean that you might have 
accepted their getting in, but now you can't even let them get 
in? And doesn't that mean, then, that your whole resources have 
to change and your whole strategy has to change?
    Mr. Walsh. Well, they do. But it is more than just the 
strategy of your adversary; it is the numbers of adversaries 
and numbers of other things, and their capabilities that go 
into----
    Mr. Shays. Right. But if you feel, for instance, that the 
design basis threat was that they were only going to have one 
insider who is helping, and you decide that there is going to 
be two out of the logic that there could be two----
    Mr. Walsh. That would change it.
    Mr. Shays [continuing]. Then your design basis threat has 
changed, correct?
    Mr. Walsh. That would change it.
    Mr. Shays. My question, though, is given that this is an 
incredible resource that we are trying to protect, why would we 
tolerate having to wait 2, 3, 4, or 5 years? That is what I 
don't understand.
    Mr. Walsh. I know I am not understanding your question, 
but----
    Mr. Shays. But you aren't answering the question. But why? 
What is so difficult about a design basis threat that it has to 
take 4 or 5 years?
    I will leave that on the table and go to the chairman. I am 
going to come back to that.
    Mr. Walsh. OK.
    Mr. Turner. Well, to pick up where the chairman has left 
off, Mr. Podonsky, you made a statement that troubled me. You 
said that this body has a design basis threat focus. And I was 
just conferring with counsel here. My recollection is the 
design basis threat process is not one that Congress has 
imposed upon you. You have just acknowledged that is the case. 
So we are left in doing an evaluation of whether or not you are 
sufficiently protecting these very dangerous assets.
    In reviewing your bureaucratic processes--and that is what 
concerns me most, is that we are talking about a bureaucratic 
process--you come up with a design basis threat and you 
determine whether or not you are going to meet it. You go 
through a process to assess what it is going to take to meet 
it.
    And I think that sometimes people don't get their heads up 
from their desks enough to look out of the window and say if 
you are actually sitting in front of this body and saying you 
are not going to meet the design basis threat until 2008, and 
it is a threat that we all acknowledge exists today, not in 
2008--Mr. Walsh, I disagree with your statement of a 15 or 20-
year time period. You are not projecting what the threat is in 
2008; you are projecting what the threat is today, and you are 
trying to meet it by 2008. Is that correct?
    Mr. Walsh. You are making an assessment of the most likely 
or representative threat that you need to protect against and 
you need to design your protection strategy against that. 
Because of the nature of the design basis, it should stay 
fairly stable over a long period of time.
    Mr. Turner. Does the design basis threat that you are 
currently trying to meet in 2008 represent a capacity for a 
threat at these facilities today? That is a pretty easy 
question.
    Mr. Walsh. Well, not really.
    Mr. Turner. I mean, either you believe that what is 
currently in your design basis threat that you are projecting 
to meet in 2008 is not a threat that is lurking out there today 
or you think it is. And if you think it is, and you are saying 
that you are going to meet it by 2008, then what you are saying 
is that DOE is not currently meeting the threat that is out 
there today.
    Mr. Walsh. Well, first let me say that we on the ESE side, 
as well as NNSA, are committed to meeting the design basis 
threat, as it is presently laid out for us in the 2004 policy 
that we have; and that is what we are moving toward meeting. 
Now, the question of validity, what I can tell you is----
    Mr. Turner. Well, perhaps let me ask it again. Are you 
telling me, then, that you do not believe that the design basis 
threat that you are attempting to meet by 2008 represents the 
threat that exists at these facilities today?
    Mr. Walsh. The most likely or most representative threat?
    Mr. Turner. Does it meet a threat that you are facing 
today? It is either yes or no.
    Mr. Walsh. No, I am sorry, Mr. Turner.
    Mr. Turner. If you don't believe it is out there, then that 
is a whole other issue for us to pursue. Do you believe that 
the design basis threat, that you are trying to meet by 2008, 
represents a threat that exists to these facilities today?
    Mr. Walsh. Mr. Chairman, I am sorry, it is more than a yes 
or no answer. It has a lot to do with the numbers and the 
capabilities and the strategies that you address with the 
numbers of people that you assume are going to come at you. It 
is not really a yes or no answer. And it is based on 
intelligence assessments and postulated threats. So I 
apologize, but it is more than a yes or no answer.
    Mr. Turner. Well, I disagree. And I am very disappointed in 
the position that you have for security in DOE, that you would 
say that you can't answer yes or no. So we will just go down 
the panel.
    Mr. Aloise, do you believe that the design basis threat 
that they are attempting to meet by 2008 represents a threat 
that exists to these facilities today?
    Mr. Aloise. In our view, that is DOE's criteria, and that 
is what we measure them against.
    Mr. Turner. Mr. Friedman.
    Mr. Friedman. That is my understanding of the criteria for 
the construction and development of the design basis threat 
essentially, yes.
    Mr. Turner. Mr. Podonsky.
    Mr. Podonsky. It was written by my office, so my answer is 
yes.
    Mr. Turner. Dr. Brede.
    Dr. Brede. That is a policy question from an implementation 
standpoint. We are preparing to deal with that threat today.
    Mr. Turner. That is not an answer.
    Dr. Brede. We posit that threat exists today. That is my 
opinion.
    Mr. Turner. Thank you.
    Dr. Adler.
    Dr. Adler. I will pass and say the last time I looked the 
DBT was classified information, and I lack a security 
clearance, so I am not capable of answering it.
    Mr. Turner. It is just an opinion as to whether or not you 
think that the threat is out there today.
    Dr. Adler. Again, the specifics of what the DBT consists of 
are not something that is shared with ordinary citizenry. What 
I would say is what is put out in the news about what this 
could consist of isn't something that will happen in the 
future, it has already happened. We have already been attacked 
by such force.
    Mr. Turner. Mr. Walsh.
    Mr. Walsh. Yes, sir.
    Mr. Turner. Do you want to change or supplement your 
answer, or is your answer still so complex that I can't decide 
if it is yes or no?
    Mr. Walsh. Well, two of the previous answers said that it 
is the criteria that they measure to.
    Mr. Turner. That is why I found your answer confusing, 
because my understanding of what the design basis threat was 
based on today's threat, not a projection of the threat in 
2008. And your answer was that it was the threat 10, 15 years 
out in the future.
    Mr. Walsh. It is a generic threat by which you design your 
protective forces and your protective strategies that you hope 
will be static for a number of years, 15 or 20 years. Now, you 
have to adjust that, and we have a review process for that 
every year. But the design basis threat is your most likely or 
most representative threat over a long period of time. I agree 
with two of the----
    Mr. Turner. So does it represent a threat that these 
facilities have today? Does that long period of time that you 
are describing to us include today?
    Mr. Walsh. If you are asking if the design basis threat is 
the most representative or most likely threat against DOE 
facilities today, I would have to say I am not sure. We are 
going through a review right now.
    Mr. Turner. Mr. Chairman.
    Mr. Shays. Mr. Walsh, you are trying to answer honestly, 
but I feel like you are Mr. Ford, telling us well before 
Eastern Europe was free, that it is free. And I would like you 
to kind of catch your breath a second.
    Mr. Walsh. OK.
    Mr. Shays. It is not a difficult question to answer. The 
design basis threat is the threat we believe exists today and 
will exist in the future. We constantly are changing the design 
basis threat. The fact that we can't be ready until 2008 means 
that we are not ready. And that gets to a question that I am 
going to pursue again.
    But, frankly, your answer is alarming. Or it just shows 
that you don't believe in the design basis threat. In other 
words, obviously, in the end, it is an opinion. It is an 
opinion, with a lot of different people, that this is the 
threat that we have to protect against. If you, in your mind, 
think that it doesn't represent an accurate threat, that is an 
answer that you can say, and you disagree with the design basis 
threat. So let us go there.
    Do you agree with the design basis threat or do you 
disagree with the design basis threat, that is, we are not 
going to talk about what it is, but do you agree with it?
    Mr. Walsh. Once again, let me state for the record that we 
are committed to the design basis threat as it is stated and we 
are moving toward preparing for that through 2008.
    Mr. Shays. I hear you.
    Mr. Walsh. Because that is the Department policy. The 
Deputy Secretary has asked us to review that right now, and we 
are undergoing an internal review of the DBT. But to restate 
it, if you are asking me if I think the design basis threat 
right now, as it is stated, is the most likely or most 
representative threat against a DOE facility----
    Mr. Shays. I didn't really ask it that way, because the 
design basis threat isn't necessarily the most likely.
    Mr. Walsh. It is the most representative.
    Mr. Shays. No. The most likely, it also has to be what we 
believe we ultimately have to protect against.
    Mr. Walsh. Right.
    Mr. Shays. It may mean that the design basis threat 
includes what we think is not as likely as something else, but 
we at least have to get up to that level. We may think it is 
more likely that--and since I haven't looked at the design 
basis threat, the numbers I am throwing out right now these 
numbers are made up.
    But, for instance, if we thought the design basis threat 
involved the fact that you could have two people on the inside 
working with people on the outside, but we think it is more 
likely it will be one, but we still have to prepare for two, 
yes, it is more likely that it may be one, but we still believe 
that we have to have our design basis threat to deal with two 
because it is still a possibility that we know we have to 
protect against.
    So when you say what is most likely, that is not really 
what I am asking. I am asking you a question: are you working 
in this administration and are you on that side of the equation 
that disagrees with the design basis threat, and is that 
shaping your response? Because that is the only way I can 
justify your answer.
    Mr. Walsh. Well, the only thing I can say, sir, is that I 
think that it is worth it to make sure that whatever the design 
basis threat is, that it is right, that we get it right.
    Mr. Shays. OK.
    Mr. Walsh. And we are in the process of reviewing it now. 
It might very well----
    Mr. Shays. And the question I have is do you disagree with 
the present design basis threat? That is not top secret, you 
can say yes or no. I haven't asked you what it is.
    Mr. Walsh. No, I understand that.
    Mr. Shays. OK. So are you on that side of the equation that 
disagrees with it?
    Mr. Walsh. I am not totally convinced that the current 
intelligence foundation that really does go into developing a 
design basis threat supports where we are right now.
    Mr. Shays. That is a fair question. Now, if that is shaping 
your response to the first question----
    Mr. Walsh. I believe it is.
    Mr. Shays. OK, but it shouldn't, because the real question 
is, in terms of policy, the design basis threat--the answer to 
the question is the design basis threat is what we believe, 
based on what we have agreed to, is a threat that we have to 
protect ourselves against; not necessarily the most likely, it 
is a threat we have to be able to protect ourselves against, 
and we test ourselves against that.
    Mr. Walsh. Right.
    Mr. Shays. Then the answer to the question is a single yes, 
it exists today. That is the simple answer to the question. The 
design basis threat is the threat we believe exists today. Is 
that not true?
    Mr. Walsh. That is true.
    Mr. Shays. Yes. And that is the better answer.
    Mr. Walsh. That is true.
    Mr. Shays. So we are going to sort out all your past 
answers and that is an----
    Mr. Walsh. OK. Thank you, sir.
    Mr. Shays. And we are not badgering you into giving us that 
answer; that is the answer.
    Mr. Walsh. I appreciate that.
    Mr. Shays. OK. And I appreciate your disagreement with the 
design basis threat, and that is fair. You have a right to 
disagree. And you have a responsibility to tell us if you 
disagree. So that is an honest dialog.
    But what I am having trouble with is given that we think 
the design basis threat is the threat we believe exists today, 
waiting until 2008 or 2007 to protect ourselves against it is a 
little unsettling.
    My question, and I will go with GAO and our Inspector 
General to start us off in this--it seems to me that obviously, 
if you change the design basis threat and you say that it is 
two insiders instead of one, all of a sudden everything 
changes. Isn't that correct? I mean, if you are protected 
against one, and now you have changed it so you have two 
insiders, then you have a different task? Can both of you 
agree?
    Mr. Aloise. Yes.
    Mr. Shays. Mr. Friedman.
    Mr. Friedman. Yes, I agree, Mr. Chairman.
    Mr. Shays. OK. Or you may decide that if you said it was 
going to be 15 people, and now we think potentially 20 people 
might attempt in some way to come in, that may change the 
design basis threat. Is that correct?
    Mr. Aloise. Yes.
    Mr. Shays. A nodding of the head doesn't get recorded. Mr. 
Friedman.
    Mr. Friedman. Yes.
    Mr. Shays. Thank you. If you believe that someone might use 
aircraft in a way that we didn't anticipate, but now we say 
they may use aircraft, that changes the design basis threat as 
well, is that correct?
    Mr. Aloise. That is correct.
    Mr. Friedman. I think it does, yes.
    Mr. Shays. OK, both responded in the affirmative.
    Now, given whatever caused us to change it, tell me what I 
need to know beyond this: you may need more people or you may 
need those people trained differently; you may need some 
technical capabilities that you didn't have in the past; or you 
may have to do structural things just with the site.
    In other words, candidly, when we were looking at Mr. 
Brooks' operation and one of the sites there, we thought a lot 
of old buildings, not a lot of clear sight lines. You need to 
get rid of some of these buildings; there are a lot of places 
to hide.
    So is there anything other than structural, technical, or 
people that go into responding to a design basis threat? And I 
am not saying that there isn't; what other ones out there? I am 
just trying to understand why it is difficult, why you have to 
take 3 years. That is what I am trying to understand. So you 
want to give me a----
    Mr. Aloise. That about sums up a lot of what you would need 
to do.
    Mr. Shays. Is your mic on, sir?
    Mr. Aloise. Excuse me?
    Mr. Shays. Is your mic on?
    Mr. Aloise. Yes. One thing would be also the consolidation 
of materials in fewer places would increase security, and you 
could develop your design basis threat around that as well.
    Mr. Shays. And that could take time to consolidate.
    Mr. Aloise. Sure. Yes.
    Mr. Shays. But it is also true that in the short-run you 
might over-utilize people to compensate for the fact that in 
the future you can consolidate and even use less people than 
you are using presently. In other words----
    Mr. Aloise. You would use less people, of course, at the 
places where you took the material from.
    Mr. Shays. When you consolidate, that enables you to focus 
your attention; collectively you are using less people. But in 
the short-run, until you consolidate you may have to use more 
people.
    Mr. Aloise. Right.
    Mr. Shays. Even more than exists right now. In other words, 
you look at it and say we have this number of people and they 
are trained, but the challenge is we think that we are 
vulnerable with this new design basis threat. We can do it two 
ways: one is we can add more people or we can take these three 
sites, make them one site, or two sites and make them one, and 
even use less people. But one takes longer, so you might have a 
short-run solution until you get to the long-run solution. 
Which gets me to this basic point: Why does it have to take 3 
years to protect ourselves?
    I will throw that open to anyone.
    Mr. Friedman. Mr. Shays, can I? I come here as an IG, of 
course, wearing several hats, but one of which is ensuring that 
we spend our money prudently and in the right way. While I 
agree the ideal is once you have an agreed upon, approved 
design basis threat that is based on sound intelligence and all 
the rest, the ideal is to have virtually an instantaneous 
defense for the threat that has been postulated in the design 
basis threat. That is, where we should be looking for. And I am 
not sure that the time that we have currently have in mind is 
an acceptable level, and I agree with your point on that.
    But we want to make sure, as well, that we spend the money 
wisely and get the money. We have to get the money, we have to 
spend it wisely, and make sure it is spent in the right 
locations and it is prioritized properly. And there are some 
time constraints that are involved there.
    I was going to mention the consolidation of material as 
well. That is not an overnight process, and you have analyzed 
that quite properly, I think.
    So while I am not here defending the Department, I am here 
trying to make sure, as well, that we spend the money 
appropriately, we award contracts properly and do all the 
things that have to be done in Government----
    Mr. Shays. Mr. Friedman, let me just be very clear. As 
Inspector General, I don't ever view that your job is always to 
criticize the Department. Sometimes you criticize it and 
sometimes you defend it. And you should never be embarrassed by 
defending the Department, helping us understand.
    Mr. Podonsky.
    Mr. Podonsky. Mr. Shays, if I could offer an alternate 
view, and it goes back to my earlier statement that Mr. Turner 
responded to. If I might go there first, because of my bringing 
in the legislative arm and the executive branch. I was not 
criticizing either body; I was making an observation that we 
are focused on a policy that is important, but I too don't have 
the responsibility for programmatic implementation.
    So it is easy for me to criticize, as an independent 
overseer, and my criticism from my organization is the 
following: It shouldn't take enormous sums of money to meet the 
threat that we think we are dealing with if we start out with 
changing our protective strategies, if we start applying new 
technologies that are actually some off-the-shelf, if we begin 
changing the way we train our elite force that we already have 
in place--not our elite force, but we already have our special 
operation forces that are trained to be responsive to different 
events. We need to start training them differently, similar to 
the way my oversight trains its composite adversary team.
    The nuclear material consolidation piece is in fact 
probably the more daunting challenge because of State 
requirements and regulations, and where we are going to put all 
the material. But I would offer to you we also, in SSA, share 
the same concern about the length of time that it takes to 
implement the new DBT, which is connected to budgetary cycles 
because people think that they need an enormous amount of more 
money.
    My colleague in the Inspector General's office thinks it is 
going to take an enormous amount of money; our colleague at GAO 
thinks it is going to take a lot more money. And I would offer 
to you that, yes, there will be more money, but not the amount 
of money that everybody is talking about if we use the 
resources we have at our sites today and use them in the 21st 
century.
    Mr. Shays. My time has run out for this line, but let me 
just say the feeling that I get when I think that a design 
basis threat can take 3 to 4 years to get up to, it really says 
to me that it is almost the attitude that Mr. Walsh has, that, 
you know, the design basis threat almost represents the extreme 
and not the unlikely; and, therefore, we don't mind if it takes 
3 years. That speaks volumes to me about the attitude. It is 
really a statement that says that we can do that and take that 
lump.
    Mr. Turner. I recognize Mr. Dent from Pennsylvania.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Podonsky, my question is directed to you. GAO believes 
that the ESE will not be able to field an elite force by the 
October 2008 DBT implementation deadline. You disagree. Why is 
that?
    Mr. Podonsky. I disagree that the Department will not be 
able to have the elite force requirements and policies in place 
as scheduled. The elite force concept was a concept that was 
born last year under previous Secretary Abraham's security 
initiatives, and the concept originally started out as whether 
we should Federalize the forces or have them as contract 
guards.
    And through an evolution of discussions with both ESE and 
NNSA and field implementers, it was determined that what is 
really needed at our sites is the capability to respond 
differently to the different events at our sites. Specifically, 
whether it be NNSA sites or ESE sites, the traditional response 
by this Department has been more of a law enforcement ``respond 
to the bank robbery'' response as opposed to more of a military 
tactical response. We are moving toward that tactical 
implementation now.
    For the last year, since the anouncement of the initiative 
of the elite force became a reality in terms of the initiative 
taking hold, there have been multiple meetings and policy 
implementation changes, and by the end of the year the part 
that I own and am responsible for the Department, in terms of 
issuing policy, putting out new standards, that will be done. 
Now, whether or not ESE and NNSA step up to the requirement, I 
can't speak for the implementers; that would be better answered 
by Mr. Walsh or by Mr. Desmond from NNSA.
    Mr. Dent. Thank you, Mr. Podonsky.
    Mr. Aloise, I have a question for you. How would you 
evaluate ESE efforts to implement the DBT denial of access 
security strategy, and do you think we can make the 2008 
deadline for the DBT implementation?
    Mr. Aloise. Not by business as usual. We are calling for a 
comprehensive plan that outlines how they are going to develop 
the elite force, how they are going to consolidate materials, 
how and where they are going to develop and deploy 
technologies. We believe that this is a big endeavor, and you 
need a very smart plan to show Congress and others how you are 
going to get there.
    Mr. Dent. Thank you.
    No further questions.
    Mr. Turner. Mr. Kucinich.
    Mr. Kucinich. I thank the Chair. Sorry I wasn't in earlier; 
there was a trade bill on the floor I was in debate on. So I 
appreciate the chance to ask some questions.
    I would like to begin with Mr. Podonsky. There have been 
hundreds of news stories over the last year related to security 
incidents at the Department of Energy facilities guarded by 
Wackenhut, specifically the Nevada test site and Y-12. There 
have been at least four Inspector General investigations in the 
past year relating to Wackenhut's performance.
    And I understand the Nevada test site security contract, 
currently held by Wackenhut, is out to bid right now. I also 
understand from recent news reports that the two security 
contracts held by Wackenhut in Oak Ridge are to be put out to 
bid together this summer.
    In the face of questions over Wackenhut's performance, what 
is the tolerance at DOE for a security contractor that creates 
an image problem, if not a security risk?
    Mr. Podonsky. I think that question would be more 
appropriate for Mr. Walsh, but let me start out with giving you 
the perspective from the SSA. We oversee the Department in 
terms of its performance, and the performance tests that we 
have run over the many years have demonstrated a mixed review 
on the capabilities of the Wackenhut guard force. But when we 
have done these inspections, like at Nevada test site, the 
corrective actions we have seen taken by both the Federal and 
the contractor, have been appropriate to resolve our concerns, 
and then we go back and retest them.
    Mr. Kucinich. So you are telling this subcommittee you 
really don't have any concerns about Wackenhut right now?
    Mr. Podonsky. We don't look at Wackenhut as a corporation 
for concerns. We look at the performance at each site.
    Mr. Kucinich. About their performance. Well, of course. 
That is what I am talking about.
    Mr. Podonsky. But as a corporation or as a contractor, that 
would be better answered by Mr. Walsh.
    Mr. Kucinich. OK, Mr. Walsh. Thank you, Mr. Podonsky.
    Mr. Walsh.
    Mr. Walsh. I am sorry, Mr. Kucinich, I wouldn't have any 
information on that. We work on the ESE side, and you mentioned 
the Nevada test site, which I don't really have any knowledge 
of. I can only say that the few times that I have been involved 
with direct oversight of Wackenhut contracts, for instance, at 
headquarters, I felt that they performed in more than an 
adequate way. So that would be the only information I have.
    Mr. Kucinich. Well, let me ask you this, either you or Mr. 
Podonsky, if you could answer this question. You had the recent 
IG report on training and overtime problems at Oak Ridge.
    Mr. Walsh. Right.
    Mr. Kucinich. And it recommended that the managers of Oak 
Ridge and Y-12 site officers, ``evaluate the impact of the 
issues discussed in this report on Wackenhut's award fee.'' Can 
you or Mr. Podonsky inform this subcommittee of the progress of 
this recommendation since the report was issued?
    Mr. Podonsky. I can tell you relative to answer your 
question. Our inspection team went down to Y-12 recently, in 
the last couple months, and we saw a vast improvement over the 
last three inspections of the performance at Y-12. Specific to 
the recommendation, I couldn't give you a current status, but I 
can tell you that the performance of the protective force that 
we saw at Y-12 far exceeded the last 6 years of our 
inspections.
    Mr. Kucinich. You say you can't give us an evaluation in 
current performance?
    Mr. Podonsky. No, I gave you the evaluation of the 
performance of the protective force in performing their duties 
through the force-on-force test that we conducted and the 
training that we reviewed. But relative to award fee and any 
other recommendations, I couldn't tell you where the program 
office is on that.
    Mr. Kucinich. Is there any way you can get that information 
and get it to the committee? Is anyone here responsible for 
that who could get that information to this committee?
    Mr. Walsh. We can take it for the record, sir, absolutely.
    Mr. Kucinich. Can you do that?
    Mr. Walsh. Yes, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5259.080
    
    Mr. Kucinich. Mr. Chairman, I just want that acknowledged.
    And, finally, Mr. Podonsky, many of the Department's 
security upgrades could be limited by consolidating the nuclear 
materials. Indeed, a few weeks ago a DOE task force proposed 
just that for DOE nuclear weapons research sites, moving all 
sensitive nuclear materials to a new manufacturing site. What 
are your views on the report of the task force and have you 
considered similar consolidation removal of Category I nuclear 
materials at ESE sites?
    Mr. Podonsky. Again, Mr. Kucinich, from our perspective, 
from oversight, we think consolidation of nuclear materials is 
a must for the Department if we are going to change our 
safeguards posture and if we are going to continue to meet the 
evolving and potential threat against the Department.
    Mr. Kucinich. It is my understanding, though, if I may, 
that according to a GAO report, neither ESE nor DOE has 
developed a comprehensive or coordinated plan. Are we going to 
see one forthcoming?
    Mr. Podonsky. Again, I am not the program office, but I 
will attempt to give you an answer from my perspective, and 
that is that the Secretary of Energy, Secretary Bodman, has in 
fact put together a nuclear material consolidation task group 
to take a look at where the possibilities are for consolidation 
across both ESE sites and NNSA sites. So I have every 
expectation that, between the two Under Secretaries and the 
Secretary's focus, that the Department will come up with a 
plan.
    Mr. Kucinich. I would like to ask the GAO, have you heard 
any feedback from the Department that they are anticipating 
bringing a plan to you?
    Mr. Aloise. Not specifically, but we are aware of the task 
force. We think the plan, again, is what is needed, because we 
have looked at individual plans and, in some cases, they 
conflict with each other, site-to-site.
    Mr. Kucinich. OK.
    Mr. Friedman, the reaction to your June 2005 report that 
raised concerns about the excessive oversight of security 
officers at Y-12, the Oak Ridge, TN facility, was strong. One 
employee of a contractor, Wackenhut, called your inspectors a 
bunch of bean counters who didn't understand security 
practices. Would you care to comment on the reaction by the NRC 
and Wackenhut officials to the June report? And, also, do you 
believe security guards are as effective if they work more than 
75 hours per week? And is hiring more guards the only solution?
    Mr. Friedman. Mr. Kucinich, I knew three of my grandparents 
who were immigrants and didn't have a great deal of formal 
education. They all told me to be the best. Whatever I did, 
they were satisfied to be the best that I could be. So if I am 
a good bean counter, I accept that manifold from Wackenhut. And 
I would rather not comment on it. I think our reports speak for 
themselves, and I think that comment speaks for itself.
    With regard to your second question as I understood it, 
clearly the Department itself--and this is its criteria, not 
mine--has said there are a maximum number of hours that a 
protective force officer can work before they become 
ineffective. They are just too tired physically. And we found, 
in a disproportionate number of cases, that the guards were 
working beyond the maximum threshold that the Department had 
established, and the risks, I think, are fairly obvious.
    Mr. Kucinich. Well, they are not obvious. What are the 
risks?
    Mr. Friedman. The risks are that physically and mentally 
they are not capable of performing their duties.
    Mr. Kucinich. And what does that mean? Please, help this 
subcommittee understand what the implications are.
    Mr. Friedman. Well, I think the implications are fairly 
clear, and that is if the guard force, which is there to 
protect the facility and protect the material, if the guards 
are tired, if they are overextended, then I think there is a 
potential degradation of the security of the facility and the 
material.
    Mr. Kucinich. So the greater the stress that is put on the 
guards, the more there is a possibility of a breach of 
security? Is it possible to say that?
    Mr. Friedman. Well, I am not a physiologist, so I can't 
speak with authority in that regard, but I think that is the 
conclusion I would reach, yes.
    Mr. Kucinich. OK.
    I guess that is it for now. Thank you, Mr. Chairman.
    Mr. Turner. Mr. Walsh.
    Mr. Walsh. Yes, sir.
    Mr. Turner. In your discussion with Chairman Shays----
    Mr. Walsh. Yes, sir.
    Mr. Turner [continuing]. I understood your answer to be 
that you have some disagreement with the current design basis 
threat based upon available intelligence. And if my 
understanding is incorrect, could you please tell me what a 
correct understanding would be?
    Mr. Walsh. What I hope to have said was that ESE programs 
are committed to implementing the design basis threat as 
provided to us, as it currently stands. We are committed to 
moving out and doing the things necessary to make sure that we 
protect against that design basis threat. I think whether or 
not the----
    Mr. Turner. Let me ask it again. I have to get back to this 
because your answers concern me because I have a followup 
question I want to ask you. What I was asking you is the design 
basis threat a threat that the facilities are experiencing 
today, is the threat that is out there. And you did not give a 
yes or no answer, and Chairman Shays said to you, I believe, 
that one reason why you could not believe that you could give a 
yes or no answer is if you disagreed with the current design 
basis threat, that you thought that the current design basis 
threat was either insufficient or incorrect.
    Mr. Walsh. Right.
    Mr. Turner. And I thought I heard you say that you did have 
some concerns about the current design basis threat.
    Mr. Walsh. I said that I was not 100 percent certain, and I 
believe that it is very important for us to make sure we get 
that right, we get the DBT right, no matter what it is. But I 
am not 100 percent certain at this time that the fundamental 
intelligence that supports and that goes into the process of 
deciding what the design basis threat is is sufficient, in my 
mind, that I have seen so far. And there might be other things 
out there that I haven't seen. But what I have seen, I am not 
sure it supports the level that we currently have as what I 
consider to be the most representative threat against DOE 
facilities or nuclear facilities in general.
    Mr. Turner. Thank you. Which gets me to my question.
    Mr. Walsh. OK.
    Mr. Turner. Do you believe that the current threat is 
higher or lower than the current design basis threat?
    Mr. Walsh. It is very difficult, until we do a more 
complete review, including a review of all the intelligence 
that is there. I would really be going out on a limb as to 
whether I thought it was higher or lower. I would really like 
to take part in the internal review that we are currently 
conducting at the request of Deputy Secretary Sell and get that 
done, and then I will come back and give you a good answer.
    Mr. Turner. Fair answer.
    Mr. Friedman, you referenced in your written testimony the 
non-U.S. citizens that were improperly allowed access to leased 
facilities at Y-12. Your testimony references it in the plural. 
Could you tell us how many, if you know?
    Mr. Friedman. Mr. Turner, I know the answer to the 
question, and it doesn't come to me to recall. It was between 
20 and 30.
    Mr. Turner. Non-U.S. citizens----
    Mr. Friedman. That is correct.
    Mr. Turner [continuing]. That used false identification.
    Mr. Friedman. That is right.
    Mr. Turner. Can you say the number again?
    Mr. Friedman. It was about 30.
    Mr. Turner. Dr. Brede, one of the issues that has come up 
in this hearing as a point to discuss is Wackenhut's foreign 
ownership. Could you please go over the current foreign 
ownership structure of Wackenhut and also, if you will, tell us 
what businesses the parent corporation and affiliate 
corporations to Wackenhut are engaged in internationally?
    Dr. Brede. Yes, sir. The parent organization is currently 
British owned. We formed essentially a separate government 
services organization with a firewall between WSI, which is 
Wackenhut Services Inc., the government arm of Wackenhut, and 
the remainder of PWC, or the Wackenhut Corp. In doing so, we 
went through the FOCI, or foreign owned and controlled process 
implemented by the Department--not only the Department of 
Energy, but the Department of Defense--to meet the specific 
requirements for parent organizations like ours.
    We are essentially in the security and emergency services 
business. We provide firefighting and emergency medical and 
security services throughout the world.
    Mr. Turner. Mr. Podonsky, in the number of hearings that we 
have had on these issues, of DOE security, I have always 
appreciated your forthcoming positions on both concerns and 
issues where you believe that DOE is performing. And in the 
materials that we have concerning the GAO report there are a 
number of references to surveys that have been taken of the 
officers that are actually providing the security services.
    I am just going to review a few of those and then I would 
like your thoughts on this, because when the GAO sites the 
issue of morale, and then when you look at these specific 
survey statistics, they do not rate well. And I will give even 
the positive ones and the negative ones.
    Specifically, 102 of the 105 officers GAO interviewed say 
that they believe that they understand what was expected of 
them. Sixty-five of the 105 officers rated the readiness of 
their site's protective forces high, while 20 officers rated 
their protective forces somewhat or moderately ready to defend 
the site. Only a minority of the officers, 16 of the 105, rated 
the readiness of their force to defend their sites as low.
    Then when you go to the other numbers, when you look at the 
critique of the force-on-force analysis, 23 of 84 protective 
force officers that had participated in these exercises 
believed that they were realistic. While 23 said they were 
somewhat realistic, in contrast, 38 officers believed they were 
not realistic.
    Then on the communication equipment, 66 of the 105 
protective force officers reported that they did not always 
have dependable radio communications, with 23 officers 
identifying sporadic battery life, 29 officers reporting poor 
reception at some locations on the site as the two most 
important problems.
    And when you go to the issue of protective force vehicles, 
14 out of 30 of the protective force officers interviewed at 
two sites reported patrol vehicles were old, in poor physical 
condition, and not suitable for pursuit and recovery missions.
    On the creation of an elite force, 74 out of 105 reported 
that they are not at all confident in their current ability to 
defeat the new threats contained in the design basis threat.
    Could you comment on the officers' survey responses?
    Mr. Podonsky. The responses from the individuals 
interviewed by the GAO are often alarming to me in my role in 
the Office of Oversight and Policy. First and foremost, the 
elite force, we do believe that the training is important, that 
we get that to those identified to play that role at their 
particular sites. Our national training center in Albuquerque, 
NM is setting up new curricula for that purpose so that we do 
get the training out to the sites.
    In terms of equipment, we have experienced ourselves, 
during our inspections, that there have been equipment issues, 
both in protective gear as well as radios, and we have seen 
that the sites have acknowledged that and are in the process of 
procuring equipment to fix those issues that were identified.
    Relative to the lack of confidence that the force-on-force 
exercises are realistic, having done force-on-force exercises 
for my organization for 20 years, I would tell you that the 
exercises that are our independent oversight runs have a 
balance between safety and security. But they are as realistic 
as humanly possible, considering the safety constraints. We 
don't use real bullets; we use laser.
    But we have employed in our organization former Navy Seal 
Op 6, Delta Force, Army Rangers. We bring people in from real 
world who--Mr. Shays just came back from the Middle East. We 
employ people who have served time there so that we can put 
into place a realistic testing of the forces.
    Now, whether the sites, when they do their force-on-force 
exercise, follow all that same realism, you are probably going 
to get a mixed story there.
    So we don't disagree with the findings or the interviews 
that the GAO has. We take that on from my policy organization 
and my oversight organization as the challenge to fix the 
problems; get out there and find out why the implementation 
isn't taking place in terms of robust force-on-force. Or, if it 
is, then let us see how better we can fix it.
    Further, make sure that the equipment is provided to the 
security officers. Obviously, I sit in an interesting situation 
because we don't implement the policy, we don't fund the 
equipment; we just criticize what sometimes needs to be 
criticized, very similar to the Inspector General's Office, but 
from a different perspective.
    But one thing I would also add, the commitment that we have 
in SSA that I would like this subcommittee to know, we have put 
in our budget the deployment of new technologies at four sites, 
both two at NNSA and two at ESE. And the reason we have done 
that, using money that the Congress has given me for technology 
deployment and technology development, is to get it out there 
now and to demonstrate to the program officers that it can be 
done.
    Mr. Turner. Mr. Chairman. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. And, once 
again, I want to thank the Chair for calling to the American 
people's attention some of these very serious security issues. 
Thank you, Mr. Chairman.
    Of course, we are here to talk about what the actions are 
must be taken that are needed by the DOE to improve security of 
weapons grade nuclear material at our Energy, Science, and 
Environmental sites. And it is necessary to focus in on those 
who are providing the security in order to come to some kind of 
a conclusion about how secure these sites are. So in that 
regard I would like to focus some questions on Dr. Brede from 
Wackenhut, first of all, to kind of get an idea, for those 
people who aren't as familiar with Wackenhut as certainly you 
are.
    What are Wackenhut's annual sales and their revenue? There 
was a profit last year. Could you tell us a little bit about 
the financial strength of the Wackenhut Corp.?
    Dr. Brede. I cannot. I can certainly take that for the 
record. Initially, in my opening statement, I indicated that I 
had just come from, as the general manager of the Savannah 
River site. And I can speak to those financials, but I am not 
prepared, sir, to address those. However, I am willing to take 
it for the record.
    Mr. Kucinich. Because I think, as a matter of record, if we 
have a corporation that is charged with providing security at 
these sites, we certainly want to know what kind of financial 
condition that corporation is in. We not only want to know 
their ownership; we want to know if they are vulnerable to 
takeover; we want to know if they are making a profit, if they 
are experiencing a loss; we want to know what their 
partnerships are. Because we are talking about security, and we 
have to look at the architecture of security.
    Can you tell the subcommittee, Dr. Brede, the security 
guards who are the subject of some of the discussions here in 
front of the committee, how much do they make an hour? What is 
their hourly pay?
    Dr. Brede. It varies. At the Savannah River site they earn 
something like $19 an hour, with overtime differentials and 
that sort of thing.
    Mr. Kucinich. That is every security personnel who is 
working there makes $19 an hour?
    Dr. Brede. No, sir. It is based on--we have unarmed----
    Mr. Kucinich. What is the lowest that a security guard 
would make?
    Dr. Brede. Somewhere in the range of $12 to $13 an hour.
    Mr. Kucinich. Is the lowest. And do these individuals also 
have full health benefits?
    Dr. Brede. Yes, they do.
    Mr. Kucinich. And are there any deductibles or co-pays? I 
mean, is it fully paid health benefits, is that what you are 
saying?
    Dr. Brede. There are some minor co-pays.
    Mr. Kucinich. And are these people who get paid time and a 
half for overtime, double time for holidays, and things like 
that?
    Dr. Brede. Shift differentials, yes, sir.
    Mr. Kucinich. They get that? Are these people who have 
retirement benefits, do you know?
    Dr. Brede. Essentially, their retirement plan at the 
Savannah River site is a two-pronged plan. One is there is an 
annual contribution made to a pension plan and, second, there 
is a 401(k) matching plan.
    One of the things that I pointed out in my opening 
testimony is that as we build this elite force, one of the 
things that needs to be looked at is a uniform benefit and 
retirement plan across the complex, if we are going to 
effectively recycle human capital through the elite force.
    Mr. Kucinich. And how long have you been with Wackenhut?
    Dr. Brede. I have been with Wackenhut for 12 years, sir.
    Mr. Kucinich. And what about these security guards, do you 
know generally how long these security guards have been with 
the Wackenhut Corp.? How long the security guards who are the 
subject of some of the discussions today, how long they have 
been with Wackenhut?
    Dr. Brede. I cannot speak to those at other sites. I can 
say that those at the Savannah River site have been with us 
anywhere from 21 years, as long as 21 years. More recently I 
believe our last class was run less than 2 years ago.
    Mr. Kucinich. Because I think it would be instructive for 
the subcommittee to see what the length of service is of the 
people that we are talking about so we could be able to make 
some kind of a determination as to whether or not some of the 
difficulties that may be experienced at some of these 
facilities might happen to be with a work force that perhaps is 
not as well trained.
    Now, I would like to ask what is your doctorate in?
    Dr. Brede. It is in criminal justice.
    Mr. Kucinich. Criminal justice, OK. OK, that is important 
for this next question. What about this issue of guards who are 
routinely working in excess of 60 hours per week? And that is 
in direct violation of DOE policy. Do you think that is 
appropriate?
    Dr. Brede. Actually, what the DOE manual really says is 
that it imposes a limit of 60 hours, but goes on to say unless 
there are alternate arrangements based on collective bargaining 
agreements between management and the unions, which in the case 
cited, Oak Ridge, there does happen to be an agreement between 
the unions there and management.
    Mr. Kucinich. So which unions are you talking about here?
    Dr. Brede. The IGUA and the SFPFA, Security, Police, and 
Fire Professionals of America.
    Mr. Kucinich. OK. So you are saying you have an agreement 
with this organization and they say 60 hours is OK. Well, as 
someone who is a Ph.D. with a background in criminology, do you 
think having guards working in excess of 60 hours per week is a 
sound policy?
    Dr. Brede. Our preference would be that they work less than 
60 hours a week. However, beginning with the situation we found 
ourselves in following September 11th, we actually, in some 
cases, worked much more than that to meet what we perceived as 
the increased threat. We are hiring additional officers at that 
particular site, incidentally, to minimize the necessity for 
overtime.
    Mr. Kucinich. Do you think guards who are working that many 
hours are as effective as guards who work, let us say, a 40 
hour week? What is your experience in that as a criminologist?
    Dr. Brede. Well, I think my more pertinent experience 
perhaps is my military experience. Are they as effective? I 
believe the answer is no. But are they sufficiently effective 
to provide a defense against the threat? I believe they 
certainly can be based on their training.
    Mr. Kucinich. Well, this subcommittee, at least staff, has 
provided information that says that these guards are working in 
excess of 60 hours a week, week after week, month after month. 
What can you tell this subcommittee about Wackenhut's 
determination to make sure that these facilities are receiving 
optimum protection from a work force that is not being ground 
up?
    Dr. Brede. I would submit to you, sir, that this is not 
necessarily a Wackenhut issue, but, rather, a protect----
    Mr. Kucinich. Well, let us talk about it in terms of 
Wackenhut, though.
    Dr. Brede [continuing]. A protective force issue. We are 
saying we saw the same difficulty across the board at many of 
our sites following September 11th. One of the problems that we 
experienced, again, througout the complex, is that when an 
officer goes through his or her basic training and are 
employed, we must wait on security clearances.
    So there is not an immediate resolution to the overtime 
problem. We await security clearances and human reliability 
program clearances before we can always put an officer to work. 
That does operate to alleviate the problems that we are 
experiencing with overtime.
    Mr. Kucinich. Well, let me just say this becomes critical 
to the concerns of this subcommittee about improving security 
at these nuclear facilities, because if we have a work force 
that is overextended, that is tired, that doesn't get relief, 
is working long hours week after week, month after work, you 
have a work force that is not going to be as alert.
    Now, it occurs to me that, notwithstanding Wackenhut's 
desire to be of service to the United States of America, that 
it might be, Mr. Chairman, based on the record, that you have 
an overextended work force here in a contractor who may 
desperately want to be holding onto a contract, keep working 
the workers, put in more hours and more hours, but not really 
be able to meet the terms which we expect to protect. I mean, 
either you need more people doing it or you need a whole 
different arrangement that isn't reflected by what Wackenhut is 
doing, with all due respect.
    I have one more question before we move on, and that is for 
Dr. Adler. Given the number of security problems and other 
incidents that have been revealed in the last 15 months at DOE 
facilities guarded by Wackenhut, do you believe that DOE could 
be better served by hiring a different security contractor or 
providing security through another kind of protective force or 
protective force structure? Could you just give us an opinion?
    Then I will yield to the chairman.
    Dr. Adler. Thank you very much, Mr. Kucinich. Our comments 
don't go to the security force structure per se; it goes to the 
way things are organized at present. No contractor is a saint. 
Everyone makes mistakes. And if they didn't make mistakes, you 
wouldn't test. We test to find the mistakes and correct them. 
The question that I have is what do you do when you find a 
mistake. Do you admit it honestly? Do you try to discover the 
roots? Do you attempt to redress the problems and resolve them 
and move forward?
    What we see, however, here is not just a mistake, one or 
two, a snapshot, as my fellow panel member said. We see 
something more like a full-length motion picture; and it is not 
a comedy. What we see here are a series of problems, often on 
the same themes, that are not being adequately addressed. They 
are not being adequately addressed by the contractor, nor by 
those directly responsible for----
    Mr. Kucinich. Well, that is why we are having this hearing.
    Dr. Adler. Yes. And I think the oversight that is being 
provided by this hearing here is to air these problems.
    Let us take, for example, the training issue. There is 
nothing new in the fact that training is not realistic. The IG 
made a comprehensive review of this over a year ago and 
identified training cutbacks and deviations from policy at a 
number of DOE facilities. We would think that would get people 
alert, that the practice would be stopped and people would 
conform with policy or indicate where they are not in 
conformance.
    Well, the IG now reports in June that, in fact, at Y-12 and 
at Oak Ridge, both facilities, there are deviations from the 
training. They said in excess of 40 percent of the planned 
hours are not actually being used for training. Now, why is 
that the case now? What we would expect is for those careful 
reports to be acted on and for heads to roll, frankly. For a 
regime to be set up where there is no tolerance for this sort 
of behavior, and those who are responsible for it to be 
appropriately punished so that it is too expensive for them to 
do it.
    Mr. Kucinich. I want to thank the gentleman.
    I want to thank the Chair for his indulgence, and 
appreciate the committee. Thank you very much.
    Mr. Turner. Mr. Burton.
    Mr. Burton. I understand that this hearing is not about the 
question that I am going to ask, but maybe somebody can answer 
it anyhow. And I apologize for my tardiness.
    I understand we have 65 nuclear power plants, and I was 
just told by our staff that there are 103 nuclear reactors. Can 
anybody tell me what measures are being taken to protect those 
facilities from either a ground attack or an air attack?
    One of the reasons I ask that question is not too long ago, 
well, twice in the last couple months, we have had scares here 
in the Capitol, where they had to evacuate the Capitol and 
other facilities around the Capitol because they thought there 
might be a plane heading toward the Capitol.
    And I would just like to know, with the nuclear exposure we 
have at these facilities, what measures are being taken to 
protect those facilities so that if a plane does try to go in 
there, or they make an attack on one of these power plants, 
that we don't have a nuclear disaster that spreads nuclear 
material all over the place.
    So anybody that can answer that for me, if you can, I would 
really appreciate it.
    Mr. Podonsky. Mr. Burton, I don't think any of us could 
directly answer that question because the facilities you are 
talking about are licensed under the Nuclear Regulatory 
Commission. And while we have some relationships with the 
Nuclear Regulatory Commission, in terms of our exchange on 
material control accountability, and we are looking at physical 
security now, I shouldn't speak for everybody, but we could not 
give you a direct answer.
    Mr. Burton. Who would I address that question to? Does GAO 
have any information on that? Has GAO looked into that?
    Mr. Aloise. Currently, we do have some work going on now 
looking at it. We have not finished our work, it is ongoing. 
NRC has its own DBT, design basis threat, by which it guards 
its facilities, similar to DOE's design basis threat, although 
it is not exactly the same.
    Mr. Burton. Maybe I could just ask the chairman, because 
the chairman is up on all this.
    Mr. Shays. I would say to the gentleman that what the GAO 
is doing is a request of ours. Maybe others have requested it 
as well. We will be having a hearing on the GAO report. We 
encounter a lot of different issues when we are looking at our 
nuclear electrical generations plants, whether the security 
there--for instance, the very people who are defending it also 
have contracts to try to infiltrate on both sides of the 
equation, and that is of concern to us. We have a lot of 
concerns, frankly.
    Mr. Burton. Well, I would like to talk to you about that, 
because that has been one of my concerns. That is one of the 
reasons I came down today. Maybe we could do a hearing down the 
road on that.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Shays. We are almost done here.
    We had a hearing one time about whether our troops were 
exposed to chemical weapons, and we asked the question and DOD 
said there has been no offensive use of chemicals in Iraq. This 
was in the first Gulf war. We then learned and had films of how 
our troops were exposed in Camassia.
    And when we contacted DOD, they came back to us and said, 
well, our troops hadn't been exposed to offensive use, they 
were exposed to defensive use. And it made me realize sometimes 
how you almost get in a word game. I mean, they knew the intent 
of the subcommittee. And that is why we tend to focus a little 
bit on how you are answering these questions to understand 
really what are you saying.
    Dr. Brede, when you said that your company is currently 
owned, you weren't trying to imply that it won't be currently 
owned in the future? It is in fact owned by----
    Dr. Brede. Absolutely.
    Mr. Shays. And it just raises the question your people are 
aware--let me ask you this. Do some of your folks have security 
clearances or do all of them have security clearances?
    Dr. Brede. The majority of our people do have security 
clearances.
    Mr. Shays. And that is because they are in a facility 
where, if they were on the wrong side of the equation, could do 
tremendous harm, correct?
    Dr. Brede. Yes.
    Mr. Shays. So we care greatly about their capabilities. We 
care about how much they are paid, because we want to make sure 
you are able to attract good people; people that might want to 
go somewhere else, but they are paid so well they stay there. 
Do you have a significant turnover rate?
    Dr. Brede. No. In fact, we do not. At the Savannah River 
site, for example, the turnover rate there is somewhere in the 
neighborhood of 2 percent. At the Oak Ridge site, if I may----
    Mr. Shays. Two percent over what period of time?
    Dr. Brede. Sorry?
    Mr. Shays. Over what period of time? Is there a time 
relating to the 2 percent? Two percent means what?
    Dr. Brede. Two percent means we average about 2 percent 
turnover per year.
    Mr. Shays. Per year. OK.
    Dr. Brede. And if I recall correctly, at the Oak Ridge 
site, it is in the neighborhood of 3 to 5 percent. There was an 
up-tick back in 2001, 2002, where the air marshals were hiring, 
and some of our officers left to go there. But that has since 
dissipated and the numbers are much lower now.
    Mr. Shays. And there is obviously logic to wanting people 
to have expertise. I mean, if we are training them, to have 
them leave after they have been trained is not a great use of 
our resources, or yours.
    Dr. Brede. No, it is not.
    Mr. Shays. Dr. Adler, your employees work both as 
government employees and for private contractors, both?
    Dr. Adler. That is correct, sir.
    Mr. Shays. Do any of them work for Dr. Brede's company?
    Dr. Adler. A small number.
    Mr. Shays. Is there anything, before this hearing ends, 
that you would like to add about the employees you represent 
and the concerns they have?
    Dr. Adler. I think the key point would be that our union 
has been seeking partnerships with employers, with mayors, 
Governors, and their clients on consistent ways to raise 
standards in the security industry, and we have been doing it 
for a long time. And we do this with the biggest security 
companies in the country.
    The kinds of problems we are talking here today, some of 
them are large-scale, but the lion's share of them, 
particularly, I think, around an elite training force, are 
problems that can come right through consultation with the 
people involved, if there is a willingness to admit the 
difficulties and work hard to overcome them.
    What I have heard today--and I should say I have heard it 
from both sides, from the contractors and those responsible--
is, to some extent, denial; to another extent I think it is not 
wishing the problem away, but pretending that the problems have 
solved themselves. What we have been presented by the GAO and 
the IG are serious problems. We have encountered these in the 
private sector, and they are surmountable problems. But it is 
not a resource problem; the officers aren't poorly paid, and 
Mr. Podonsky has seconded this. The problem is a matter of 
will.
    Mr. Shays. Is what?
    Dr. Adler. The problem is a matter of will, of a 
willingness to confront these problems and overcome them in 
consultation with those most directly involved, and in this 
case I mean the guards. I don't see that emerging from this 
discussion or from the practices of the Department over the 
last number of years.
    Mr. Shays. Is there a difference of approach when the 
government hires the employees and when the contractor, or is 
it pretty much similar?
    Dr. Adler. Well, I think the pressure on the private 
contractor to cut costs is greater than it is in government, 
particularly if they have to report to a foreign owner who is 
publicly traded. I think that pressure is there anyway, but I 
think it is very sharp in the private world. We encounter it 
all the time in the commercial office world. And those 
pressures can only be lifted, I think, in an effective regime 
of oversight that punishes those kinds of cost cuttings.
    Mr. Shays. GAO has said in their statement, ``However, DOE 
neither sets standards for individual protective force officers 
participation in these exercises, nor requires sites to track 
individual participation.'' This is under the heading 
``Performance Testing and Training.'' In your statement it is 
not that much different, you said ``Most officers we spoke with 
were concerned about their quality and realism of their 
training,'' which gets me to your point. ``Further, because DOE 
neither sets standards for nor tracks individual participation 
for its exercises, it was difficult to determine how many 
officers had this important training.''
    I am asking the question why not, and I think it goes to 
you, Mr. Podonsky, and it goes to you, Mr. Walsh. Why does DOE 
neither set standards for, nor track individual participation 
for its exercises? So I will start with Mr. Walsh first.
    Mr. Walsh. Mr. Shays, we do need to track that, and we 
agree 100 percent with those recommendations. We are going to 
work with Mr. Podonsky's office. We have already been in 
contact with each other to commit to develop policy 
requirements to do that by the end of this year on both of 
those cases.
    Mr. Shays. Good. Thank you.
    Mr. Podonsky.
    Mr. Podonsky. Mr. Shays, I would tell you candidly I am 
embarrassed that 17 months ago I took over the policy group and 
I did not know until the GAO report that the individual 
tracking of participants in DOE was not taking place. I will 
tell you that I was under the wrong assumption for 20 years, 
when my oversight was conducting these tests, that all the 
sites were tracking and following the performance of each 
individual. We are changing that.
    Mr. Shays. That is one reason we have the GAO and an 
Inspector General, and my attitude is if they point out things 
that need correction and there is a willingness to jump right 
in and deal with it, that is when I think the system works the 
best. We never can make an assumption that they are not going 
to find things that need work.
    So I am happy to end on that note as far as my questions.
    Mr. Turner. Mr. Burton.
    Mr. Burton. First of all, I don't want to belabor this 
point and discuss something that is not on the agenda today, 
but about 2\1/2\ years ago, I think, according to the staff, 
you had a hearing on one of the nuclear plants and how they 
protect them. And according to what your staff expert said was 
that nuclear plant could withstand an air attack of some 
magnitude without disbursing a lot of nuclear material into the 
atmosphere.
    I have a television show I do about every couple months, 
and I had Curt Weldon on, Congressman Weldon, who is an expert 
in a lot of areas on the National Security Committee. And he 
brought on a briefcase that the Soviet Union--it was a replica 
of a briefcase the Soviet Union had made. There were 65 or 70 
of them manufactured, and there were nuclear weapons in a 
briefcase; they weighed about 50 pounds. And I was told by him 
and other experts that would destroy an area of about five city 
blocks if it was ever detonated.
    Now, several of those briefcase nuclear devices have never 
been accounted for by the Russians, and there may be others 
that have been manufactured. So what I would like for GAO to 
find out is--and I understand from staff that the FAA has some 
real problems with creating areas around these nuclear power 
plants where planes can't fly, I guess because of the air lanes 
that we have.
    But it seems to me if a nuclear device can be put in a 
briefcase, it can certainly be put on a small plane. And if it 
would destroy five square blocks, it certainly could penetrate 
and do a lot of damage to a nuclear power plant.
    I would like to find out if there is anything we could do 
to protect those nuclear power plants from that kind of air 
attack. Because if there is an air attack and you do have 
something like Chernobyl take place because of that air attack, 
you are going to have tens of thousands of people dying of 
radiation poisoning or ancillary diseases, cancer or whatever 
it happens to be. So I don't know if you guys have ever looked 
at that at GAO, but I would like--I understand you are doing a 
research project right now.
    Could you include that in your research project? Also, I 
would like to, in that research project, if you could, there 
may be some air restrictions by FAA that we could live with, 
but when you are talking about low-flying aircraft that gets 
down below, say, 1,000 or 2,000 feet, there might be some way 
to protect that nuclear facility against that, if it gets 
within a certain radius that might endanger that area.
    There is no question in my mind that small nuclear devices 
could be produced and put on a small aircraft that could 
penetrate those, no matter how strong they are, if what I have 
been told in the past is accurate. And I would just like to 
find out if there is any way to protect those 60-some nuclear 
power plants and those 100-some reactors we have from that kind 
of an attack.
    So, Mr. Chairman, I would really like to look into that. 
And if we could have that study expanded to include that, I 
would really appreciate it.
    Mr. Shays. I thank the gentleman. If the gentleman would 
yield.
    Mr. Burton. I will yield to my colleague.
    Mr. Shays. My understanding is the NRC is looking at flight 
zones right now and are looking at the vulnerability. But maybe 
you could be responsive to the issue, without delving into too 
much, to say whether, in this mix of looking at the postulated 
threat and the design basis threat, whether we obviously take a 
look at aircraft and the possibility of their being able to do 
damage. Maybe you could respond, someone, to that question.
    Mr. Podonsky. At 1:45 today we are meeting with Deputy 
Secretary Sell to have the detailed discussion on the latest 
review of the design basis threat, and part of that is looking 
at not only the numbers that we have talked about, around, but 
also in looking at all that encompasses and what kind of 
threats are realistic today that we really need to protect 
against.
    Mr. Shays. Including----
    Mr. Podonsky. Including aircraft and what can we do.
    Mr. Burton. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Turner. Mr. Friedman, you indicated you wanted to 
respond?
    Mr. Friedman. I appreciate the courtesy, Mr. Chairman. You 
asked an important question before about the number of illegal 
aliens and regarding Y-12, and I misspoke. I wasn't sure that I 
recalled the answer, and I recalled it incorrectly. The correct 
answer is 16, and I would like to correct that for the record, 
if you don't mind. And I thank you and I apologize.
    Mr. Turner. I thank you for that number, and I appreciate 
your trying to accommodate us with an estimate. So thank you 
for the correction.
    Dr. Brede, Dr. Adler was raising the issue, when we have 
security that is being provided by a private company, that, 
unlike in the operations of government-provided security, you 
have the issue of the bottom line that is more prevalent and, 
therefore, pressures to cut costs. My thought is that you also 
have the pressure to increase revenue.
    And with the series of questions and concerns that have 
been raised about the extensive time that some security 
personnel are working it made me wonder about the current 
construct of your contract. The contract under which you are 
paid for the services, is it a cost-plus contract?
    Dr. Brede. It varies with each site. At Oak Ridge I believe 
it is a fixed price contract; at the Savannah River site it is 
a cost plus award fee contract.
    Mr. Turner. And the award fee, is that a percentage of your 
expenses? Obviously, if you are encouraged to----
    Dr. Brede. It is not a percentage, sir, it is an agreed-
upon figure agreed upon at the initiation of the contract, and 
adjusted based on as missions are added or, in some cases, go 
away.
    Mr. Turner. OK. Well, for the record, if any of you, Mr. 
Walsh, Mr. Podonsky, or Dr. Brede, want to supplement the 
answer, what I am looking for is any financial incentive that 
you might have as a private contractor to encourage overtime 
such that the government's expenses go up and therefore your 
profit goes up, I would be interested in knowing, because it 
doesn't seem to me, in reading this information about the work 
week of these security officers, that it makes a whole lot of 
sense that, certainly, security is not served by officers 
working in excessive hours.
    So I would like to know what else might be at play here. 
And if there is any increase in revenue to your company as a 
result of excessive hours of security guards, I would like to 
know it.
    Dr. Brede. There is not in the two contracts with which I 
am familiar.
    Mr. Turner. In that, we are going to close, and I will just 
give everyone an opportunity if there is anything that you want 
to add to the record before we close.
    Mr. Podonsky. I would, Mr. Chairman. We have talked about 
the DBT extensively, and I just want to make it clear for the 
record, from the SSA perspective, that the DBT is in fact the 
current threat, and it should be met as soon as possible 
utilizing all the areas that I have talked about previously, to 
include elite force, training, technology application, nuclear 
material consolidation, as well as strategies.
    And we believe that while we need to meet that as soon as 
possible, we also recognize hiring new guards, you have to hire 
cleared guards, and cleared guards take some time. Putting in 
technology costs some money. But there is no reason in the 
world that we shouldn't be further along than we are right now.
    Dr. Brede. Yes, I would also offer a statement in closing. 
Throughout this hearing we have heard allegations of poor 
performance, of cheating and so on by protective force 
contractors. I would point out that these have been 
investigated by the DOE, and refuted in writing and, indeed, in 
previous testimony by both DOE and contractors. I would submit 
to you our forces are not perfect. They do make mistakes. But 
our training is designed so that these human errors are the 
exception rather than the rule. And I believe their 
demonstrated performance in competitions, in reviews by Mr. 
Podonsky's organization prove that out.
    Thank you, sir.
    Mr. Turner. I would just like to note, Dr. Brede, I don't 
think that anyone questioned the individual security officers. 
I think they questioned the management and the effective 
management and the effective providing of resources, which 
would be your company, and not the individuals who are 
providing the services. I think the GAO report speaks for 
itself as to the areas of criticism that it identifies.
    Thank you. With that, we will be adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
